<html>
<title> - [H.A.S.C. No. 111-138] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2011 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-138]
 
                                HEARING
                                   ON
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2011

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

BUDGET REQUESTS FROM THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS 
                COMMAND, AND U.S. TRANSPORTATION COMMAND

                               __________

                              HEARING HELD

                             MARCH 17, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
58-173                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6d0a1d022d0e181e190508011d430e020043">[email&#160;protected]</a>  
                                     
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
PATRICK J. MURPHY, Pennsylvania      K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                DOUG LAMBORN, Colorado
CAROL SHEA-PORTER, New Hampshire     ROB WITTMAN, Virginia
JOE COURTNEY, Connecticut            MARY FALLIN, Oklahoma
DAVID LOEBSACK, Iowa                 DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             JOHN C. FLEMING, Louisiana
GABRIELLE GIFFORDS, Arizona          MIKE COFFMAN, Colorado
NIKI TSONGAS, Massachusetts          THOMAS J. ROONEY, Florida
GLENN NYE, Virginia                  TODD RUSSELL PLATTS, Pennsylvania
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 17, 2010, Fiscal Year 2011 National Defense 
  Authorization Act--Budget Requests from the U.S. Central 
  Command, U.S. Special Operations Command, and U.S. 
  Transportation Command.........................................     1

Appendix:

Wednesday, March 17, 2010........................................    47
                              ----------                              

                       WEDNESDAY, MARCH 17, 2010
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
  FROM THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS COMMAND, AND 
                      U.S. TRANSPORTATION COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

McNabb, Gen. Duncan J., USAF, Commander, U.S. Transportation 
  Command........................................................    12
Olson, Adm. Eric T., USN, Commander, U.S. Special Operations 
  Command........................................................    10
Petraeus, Gen. David H., USA, Commander, U.S. Central Command....     5

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    54
    McNabb, Gen. Duncan J........................................   133
    Olson, Adm. Eric T...........................................   115
    Petraeus, Gen. David H.......................................    58
    Skelton, Hon. Ike............................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................   157
    Ms. Sanchez..................................................   157
    Mr. Spratt...................................................   157
    Mr. Taylor...................................................   157

Questions Submitted by Members Post Hearing:

    Mr. Brady....................................................   161
    Mr. Ellsworth................................................   162
    Mrs. McMorris Rodgers........................................   161
 FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUESTS 
  FROM THE U.S. CENTRAL COMMAND, U.S. SPECIAL OPERATIONS COMMAND, AND 
                      U.S. TRANSPORTATION COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 17, 2010.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning.
    The House Armed Services Committee meets today to receive 
testimony from the commanders of the United States Central 
Command [CENTCOM], the United States Special Operations Command 
[SOCOM], and the United States Transportation Command 
[TRANSCOM] on the posture of their respective commands.
    I was just speaking with our new staff director, Paul 
Arcangeli, and I remarked to him, and he agreed with me, that 
we are truly blessed with outstanding military leaders today, 
and in front of us we have such outstanding leaders in our 
country: General David Petraeus, commander of the United States 
Central Command; Admiral Eric Olson, commander, United States 
Special Operations Command; and General Duncan McNabb, 
commander, United States Transportation Command. And we welcome 
you and thank you for being with us.
    Your three commands face a series of interrelated and 
serious challenges in the immediate future. In Iraq, the United 
States is set to redeploy almost 50,000 troops and their 
equipment by the end of August. Originally, we expected this 
reduction to take place after the formation of a new Iraqi 
government to allow us to help ensure stability. The Iraqi 
elections, however, were delayed by months, so now our 
reduction in force levels will take place while the new 
government is being formed, a period that could see, we hope 
not, outbreaks of violence. This will stress all three 
commands.
    General Petraeus, you and General Odierno will have to deal 
with the potential instability caused by the formation of the 
new government and the reduction of the United States force 
levels simultaneously.
    Admiral Olson, your forces in-country will be faced with a 
reduction in support from the general purpose forces, and 
General McNabb, TRANSCOM with CENTCOM, will be carrying out one 
of the largest moves in military personnel and equipment in 
decades.
    To complicate matters, this reduction in force in Iraq, 
which is stressful enough on its own, is coming at the same 
time we are increasing force levels in Afghanistan. I have long 
supported increasing our commitment in the war in Afghanistan, 
but as you know, General McNabb, better than anyone, shipping 
30,000 troops and their equipment into that country, while 
supporting the 68,000 troops already there, is extremely 
challenging. And the task faced by those troops, which include 
a substantial number of special operations forces, is in itself 
daunting.
    As we discovered in the initial invasion of Afghanistan 
after September the 11th, 2001, pushing the Taliban and their 
Al Qaeda allies out was the easy part. Building security forces 
and governments that can keep them out is much harder. I 
supported them and continue to support a fully-resourced 
counterinsurgency campaign in Afghanistan because I believe it 
is the only option likely to be successful.
    But we should not kid ourselves that it will be easy or 
inexpensive. It will require the three of your commands--all 
three of you--to continue to cooperate closely.
    Looking back, I believe that we made our job in Afghanistan 
harder because we got involved in Iraq. So the question for the 
future, General Petraeus, is when we have learned to do more 
than one thing at a time. We have a long list of tasks ahead. 
We need to keep our eye on Afghanistan without losing 
visibility of the future relationship we would like to build in 
the other country, Iraq.
    We also need help in Yemen and other countries dealing with 
their allocated problems, and we must counter Iranian influence 
and attempts to develop the capability to build nuclear 
weaponry.
    Can we succeed in all of these areas while still keeping 
our eye on Afghanistan?
    Admiral Olson, you also have challenging tasks in the near-
term. How do you plan to deal with your incredibly high tempo? 
My understanding is that 86 percent of your deployed force is 
deployed to the Central Command area of operations [AOR]. While 
CENTCOM is certainly the current focus of ongoing operations in 
the fight against Al Qaeda and its allies, we have to ask if 
this is making us vulnerable in other ways or in other places.
    Are we missing out on opportunities with our special forces 
to partner with and train and mentor in other countries across 
the globe because of these high demands within the United 
States Central Command area?
    General McNabb, your largest challenge seems to lie in the 
immediate future. I hope you can identify those for us today, 
including what tradeoffs may be required. Will meeting the 
demands in the Central Command lessen support for other combat 
and commands or our ability to respond to emergencies as they 
come to pass?
    I also hope that you will discuss with us the results of 
the recently completed mobility capability requirements study 
and how we will meet the challenges identified in that 
particular study. We must be able to sustain the wars of today, 
while still making sure that we are prepared for the threats of 
tomorrow, whatever they may be.
    I have pointed out from time to time that since 1977, our 
country has been engaged in 12 conflicts through all those 
years, and we hope the future is not a repetition, but we must 
be prepared.
    Thank you, each of you, for your fantastic service. We look 
forward to your testimony today.
    I turn now to my good friend, the ranking member, the 
gentleman from California, Buck McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 51.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    Today, we continue our series of posture hearings with 
commanders from U.S. CENTCOM, U.S. SOCOM and U.S. TRANSCOM. I 
would like to welcome General Petraeus, Admiral Olson, and 
General McNabb and thank each of your for your leadership, your 
service, and I second the comments of our chairman about the 
fortune that--our good fortune to have you here at this time.
    Let me begin with Afghanistan and Pakistan. Four months 
ago, the president outlined a new strategy and recommitted the 
United States to defeating Al Qaeda and the Taliban. Based on 
recommendations from the senior leadership, including you 
gentlemen, he authorized the deployment of 30,000 additional 
U.S. forces. A portion of those forces have arrived and others 
are preparing to deploy over the coming months.
    Like most Republicans, I support the president's decision 
to surge in Afghanistan. I believe that with additional forces, 
combined with giving General McChrystal the time, space, and 
resources he needs, we can and will win this conflict. We must 
defeat Al Qaeda and the Taliban. This means taking all 
necessary steps to ensure Al Qaeda does not have a sanctuary in 
Afghanistan or Pakistan.
    General Petraeus, as you have stated publicly, Operation 
Moshtarak is just the initial operation of what will be a 12- 
to 18-month campaign. I believe that we have most of the inputs 
right in terms of the leadership, organization, and strategy 
for Afghanistan. I am not sure we have the level of resources 
exactly right yet.
    I support the additional 30,000 U.S. forces and the 
civilian surge, but I question if it is enough and if the 
commanders on the ground have the flexibility to assess and ask 
for more, whether it be additional combat troops or certain 
enablers such as intelligence, surveillance, and reconnaissance 
[ISR], medical evacuation [medevac], and force protection 
capabilities.
    These enablers were already under-resourced prior to the 
surge. Today, I hope you will address this issue head-on and 
convince me that our commanders are not capped at 30,000.
    Moving west in the CENTCOM AOR, I want to briefly comment 
on Iraq. While we continue to await the results of the March 
7th national elections, one thing is clear. The new Iraqi 
government may not form until roughly the same time that the 
U.S. combat forces exit Iraq. This certainly was not the 
original plan.
    The seating of the government was to take place prior to 
substantial draw-down of our forces. Thus, I remain concerned 
that the security situation in Iraq is fragile, and fear that 
mixing two drivers of instability---the president's 
redeployment timeline and the seating of the new Iraqi 
government--could pose a risk to our troops and their mission.
    Two other challenges in the CENTCOM AOR that have come into 
focus of late are Yemen and Iran. While the Christmas Day 
bomber revealed to the American public the threat posed by Al 
Qaeda in the Arabian Peninsula, CENTCOM has been focused on 
Yemen for quite some time.
    My formula for Yemen is simple: The U.S. should be in the 
business of helping Yemen secure its territory and fight AQAP 
[Al Qaeda in the Arabian Peninsula]. It should not be in the 
business of asking Yemen to take on more security challenges by 
taking into their country Gitmo detainees.
    Finally, for the CENTCOM AOR, a word on Iran. While there 
may be disagreement as to whether Tehran seeks a nuclear 
weapon, it seems indisputable that they are on the cusp of 
obtaining the capability to build one. This should be a red 
line.
    We hear a lot about diplomatic engagement and economic 
sanctions. Yet, Tehran's behavior remains unchanged. It seems 
to me that Tehran poses a military threat that requires 
military planning. I would like our witnesses to comment on how 
the military is positioning itself to deal with the range of 
challenges posed by Iran.
    Let me say a few words on SOCOM. SOCOM has been heavily 
engaged worldwide, but especially in Iraq and Afghanistan. 
Admiral Olson, your forces will remain engaged long after the 
conventional forces draw down in those countries, making 
effective training, resourcing, and support for SOCOM all the 
more critical.
    I am very concerned about how SOCOM, a command that often 
must rely on critical support and enablers from outside the 
command will sustain its operations in an effective manner when 
the conventional footprint withers.
    Let me conclude by addressing TRANSCOM. General McNabb, I 
would like to congratulate TRANSCOM for their miraculous job in 
responding to the earthquake in Haiti. There is only so much we 
can plan for in this unpredictable world, and your organization 
has displayed an incredible amount of flexibility and 
responsiveness. Thank you for all that you have done.
    Mr. Chairman, I ask that my entire statement be included in 
the--for the record, where I address other issues facing 
combatant commands testifying today.
    Once again, I thank you all for being here and I look 
forward to your testimonies.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 54.]
    The Chairman. I thank the gentleman, and your statement 
will be spread upon the record, without objection.
    General Petraeus, we welcome you, and we ask you to 
proceed, please.

   STATEMENT OF GEN. DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

     General Petraeus. Well, thank you, Mr. Chairman, 
Congressman McKeon, members of the committee. Thank you for the 
opportunity to provide an update on the situation in the U.S. 
Central Command area of responsibility.
    And let me say that it is a privilege to do this with my 
close partners and friends Admiral Olson and General McNabb. We 
all do, indeed, as you have noted, work very closely together.
    U.S. CENTCOM is, as members of this committee know very 
well, now in its ninth consecutive year of combat operations. 
It oversees the U.S. efforts in Afghanistan and Iraq and the 
assistance to Pakistan, as well as a theater-wide campaign 
against Al Qaeda.
    Today, I will briefly discuss our ongoing missions as well 
as some of the dynamics that shape activities in the CENTCOM 
AOR.
    First, Afghanistan: As President Obama observed in 
announcing his new policy, it is in our vital national interest 
to send an additional 30,000 U.S. troops to Afghanistan.
    As he noted, these forces will provide the resources that 
we need to seize the initiative while building the Afghan 
capacity that can allow for a responsible transition of our 
forces out of Afghanistan.
    Clearly, the challenges in Afghanistan are considerable, 
but success there is, as General McChrystal has observed, both 
important and achievable.
    Our goals in Afghanistan and in that region are clear. They 
are to disrupt, dismantle and defeat Al Qaeda and its extremist 
allies, and to set conditions in Afghanistan to prevent 
reestablishment of transnational extremist sanctuaries like the 
ones Al Qaeda enjoyed there prior to 9/11.
    To accomplish this task, we are working with our ISAF 
[International Security Assistance Force] and Afghan partners 
to improve security for the Afghan people, to wrest the 
initiative from the Taliban and other insurgent elements, to 
develop the Afghan security forces, and to support 
establishment of Afghan governance that is seen as legitimate 
in the eyes of the people.
    We spent much of the past year working, as Congressman 
McKeon noted, to get the inputs right in Afghanistan, 
establishing the structures and organizations needed to carry 
out a comprehensive civil-military counterinsurgency [COIN] 
campaign, putting our best leaders in charge of those 
organizations, developing the right concepts to guide our 
operations, and providing the authorities and deploying the 
resources needed to achieve unity of effort and to implement 
the concepts that have been developed.
    These resources include the forces deployed in 2009 and the 
30,000 additional U.S. forces currently deploying, 9,000 more 
forces from partner nations, additional civilian experts, and 
funding to enable our operations, and the training and 
equipping of 100,000 Afghan security force members over the 
next year and a half.
    With the inputs largely in place, we are now starting to 
see the first of the outputs. Indeed, the recent offensive in 
central Helmand province represented the first operation of the 
overall civil-military campaign plan developed by ISAF and its 
civilian partners together with Afghan civilian and security 
force leaders.
    Central to progress in Afghanistan will be developing the 
Afghan National Security Forces [ANSF], an effort made possible 
by your sustained support of the Afghan Security Forces Fund 
[ASFF].
    Expansion of Afghanistan's security forces is now under way 
in earnest in the wake of the Afghan and international 
community decision to authorize an additional 100,000 Afghan 
security force members between now and the fall of 2011.
    This effort is facilitated considerably by the recent 
establishment of the NATO [North Atlantic Treaty Organization] 
Training Mission-Afghanistan, led by Lieutenant General Bill 
Caldwell. And ISAF member nations are now working hard to field 
the additional trainers, mentors, partner elements, and 
transition teams to enable the considerably augmented 
partnering, training, and recruiting that are essential to the 
way ahead in this important arena.
    The civil-military campaign on which we have embarked in 
Afghanistan will unfold over the next 18 months. And, as many 
of us have observed, the going is likely to get harder before 
it gets easier. 2010 will, in fact, be a difficult year--a year 
that will see progress in the reversal of the Taliban momentum 
in important areas, but also a year in which there will be 
tough fighting and periodic setbacks.
    Pakistan: We have seen important change in Pakistan over 
the past year. During that time, the Pakistani people, 
political leaders, and clerics united in recognizing that the 
most pressing threat to their country's very existence was that 
posed by certain internal extremist groups, in particular, the 
Pakistani Taliban.
    Pakistani citizens saw the Taliban's barbaric activities, 
indiscriminate violence and repressive practices in the North-
West Frontier Province [NWFP] and the Federally Administered 
Tribal Areas [FATA], and they realized that the Taliban wanted 
to take Pakistan backward several centuries, not forward.
    With the support of Pakistan's people and leaders, the 
Pakistani military has carried out impressive counterinsurgency 
operations over the past ten months. The army and the Frontier 
Corps have, during that time, cleared the Taliban from Swat 
district, which I visited three weeks ago, and from other areas 
of the North-West Frontier Province as well.
    Now, they are holding, building, and beginning to 
transition in those areas.
    We recognize the need for considerable assistance to 
Pakistan as they continue their operations, and we will 
continue to work with Congress in seeking ways to support 
Pakistan's military.
    Our task, as Secretary Gates has observed, has to be to 
show that we are going to be a steadfast partner, that we are 
not going to do to Pakistan what we have done before, such as 
after Charlie Wilson's war, when we provided a substantial 
amount of assistance, and then left precipitously, leaving 
Pakistan to deal with a situation we had helped create.
    It is, therefore, important that we provide a sustained, 
substantial commitment, and that is what we are endeavoring to 
do, with your support. The Kerry-Lugar-Berman bill does that by 
providing $1.5 billion per year for each of the next 5 years.
    The provision of coalition support funding [CSF], foreign 
military financing [FMF], the Pakistani Counterinsurgency Fund 
[PCF] and other forms of security assistance provide further 
critical help for Pakistan's security forces.
    Altogether, this funding and our assistance demonstrate 
America's desire to strengthen this important strategic 
partnership and help our Pakistani colleagues.
    Iraq: In the three years since the conduct of the surge, 
security in Iraq has, of course, improved significantly. 
Numbers of attacks, violent civilian deaths and high-profile 
attacks are all down by well over 90 percent from their highs 
in 2006 and 2007.
    With the improvements in security has also come progress in 
a variety of other areas. The conduct of the elections on 7 
March, during which an impressive turnout of Iraqi voters 
defied Al Qaeda attempts to intimidate them, provided the 
latest example of Iraq's progress.
    As always, however, the progress is still fragile and it 
could still be reversed. Iraq still faces innumerable 
challenges. And they will be evident during what will likely be 
a difficult process as the newly elected Council of 
Representatives selects the next prime minister, president, and 
speaker of the council, and seeks agreement on other key 
decisions as well.
    Our task in Iraq is to continue to help the Iraqi security 
forces [ISF], in part through the Iraqi Security Forces Fund 
[ISFF] as we continue to draw down our forces in a responsible 
manner.
    This task has been guided, of course, by the policy 
announced by President Obama about a year ago. Since that 
announcement, we have reduced our forces in Iraq by well over 
30,000 to some 97,000. And we are on track to reduce that 
number to 50,000 by the end of August, at which time we will 
also complete a change in mission that marks that transition of 
our forces from a combat role to one of advising and assisting 
Iraqi security forces.
    As we draw down our forces in Iraq and increase our efforts 
in Afghanistan and Pakistan, we must not lose sight of other 
developments in the CENTCOM AOR. I want to highlight 
developments in two countries--Yemen and Iran.
    In Yemen, we have seen an increase in the prominence of Al 
Qaeda, as it exploits the country's security, economic and 
social challenges. The threat to Yemen, to the region, and, 
indeed, to the U.S. homeland posed by what is now called Al 
Qaeda in the Arabian Peninsula [AQAP], has been demonstrated by 
suicide bombers trying to carry out attacks in Yemen's capital, 
by the attempt to assassinate the Assistant Minister of 
Interior of Saudi Arabia, and by the attempted bombing of the 
U.S. airliner on Christmas Day.
    In fact, a number of us have been increasingly concerned 
over the past 2\1/2\ years by the developments we have observed 
in Yemen.
    And last April, I approved a plan developed in concert with 
our ambassador in Yemen, U.S. intelligence agencies and the 
State Department to expand our assistance to key security 
elements in Yemen.
    With Yemeni President Salih's approval, we began executing 
that plan last summer, and this helps strengthens the 
capabilities demonstrated by the Yemeni operations that were 
carried out against Al Qaeda in the Arabian Peninsula in mid-
December and that have been executed periodically since then.
    And with your support, we are working toward expanded, 
sustained levels of assistance in Yemen.
    Iran poses the major state-level threat to regional 
stability in the CENTCOM AOR. Despite numerous U.N. [United 
Nations] Security Council resolutions and extensive diplomatic 
efforts by the P-Five-plus-One [Permanent Five plus One] and 
the IAEA [International Atomic Energy Agency], the Iranian 
regime continues its nuclear program. Indeed, Iran is assessed 
by many analysts to be engaged in pursuing a nuclear weapons 
capability, the advent of which would destabilize the region 
and likely spur a regional arms race.
    The Iranian regime also continues to arm, fund, train, 
equip, and direct proxy extremist elements in Iraq, Lebanon, 
and Gaza, and, to a lesser degree, in Afghanistan.
    The Iranian regime's internal activities are also 
troubling, as its violent suppression of opposition groups and 
demonstrations in the wake of last year's hijacked elections 
has made a mockery of the human rights of the Iranian people 
and fomented further unrest.
    These internal developments have also resulted in greater 
reliance than ever on Iran's security services to sustain the 
regime's grip on power.
    Having discussed the developments in those countries, I 
would now like to explain the importance of two key enablers in 
our ongoing mission and to raise on additional issue.
    The Commander's Emergency Response Program, or CERP, 
continues to be a vital tool for our commanders in Afghanistan 
and Iraq. Small CERP projects are often the most responsive and 
effective means to address a local community's needs, and where 
security is challenged, CERP often provides the only tool to 
address pressing requirements.
    In the past year, we have taken a number of actions to 
ensure that we observe the original intent for CERP, and also 
to ensure adequate oversight for use of this important tool.
    I have, for example, withheld approval for projects over 
$1.0 million at my level, and there has been only one such 
project since late last September.
    In the past year, we have asked the Army Audit Agency to 
conduct audits of the CERP programs in Iraq and Afghanistan. We 
have established guidelines for the number of projects each 
CERP team should oversee, and we have coordinated with the 
military services to ensure adequate training and preparation 
of those who will perform functions connected with CERP in 
theater, while we have also established procedures to reduce 
cash on the battlefield.
    In the past year, CENTCOM has pursued several initiatives 
to improve our capabilities in the information domain, and we 
have coordinated closely with the State Department's Under 
Secretary for Public Diplomacy, Judith McHale, in pursuing 
these actions.
    This past year we made significant headway in improving our 
capability to counter adversary information operations, 
including establishing a full-fledged Joint Information 
Operations [IO] Task Force in Afghanistan.
    Nonetheless, we still have a long way to go and we 
desperately need to build the capabilities of a regional IO 
task force to complement the operations of the task force that 
has done such impressive work in Iraq and the one that is now 
beginning to do same in Afghanistan.
    In the broader CENTCOM AOR, Operation Earnest Voice [OEV] 
is the critical program of record that resources our efforts to 
synchronize our IO activities to counter extremist ideology and 
propaganda and to ensure that credible voices in the region are 
heard.
    OEV provides CENTCOM with direct communications 
capabilities to reach regional audiences through traditional 
media, as well as via website and regional public affairs 
blogging.
    In each of these efforts, we follow the admonition we 
practiced in Iraq, that of trying to be first with the truth. 
Full and enduring funding of OEV and other DOD [Department of 
Defense] information operations will, in coordination with the 
State Department, enable us to do just that, and in so doing to 
communicate critical messages and to counter the propaganda of 
our adversaries.
    Cyberspace has become an extension of the battlefield, and 
we cannot allow it to be uncontested enemy territory. Indeed, 
in the years ahead extremist activities in cyberspace will 
undoubtedly pose increasing threats to our military and our 
Nation as a whole.
    DOD and other elements of our government are, of course, 
working to come to grips with this emerging threat. Clearly, 
this is an area in which we need to develop additional 
policies, build capabilities, and ensure adequate resources. I 
suspect, in fact, that legislation will be required over time 
as well.
    Within DOD, the establishment of the U.S. Cyber Command 
proposed by Secretary Gates represents an essential step in the 
right direction.
    This initiative is very important because extremist 
elements are very active in cyberspace. They recruit there, 
they proselytize there, they coordinate attacks there, and they 
share tactics and techniques there.
    We have to ask ourselves if this is something that we 
should allow to continue. And if not, then we have to determine 
how to prevent or disrupt it without impinging on free speech.
    There are currently over 210,000 soldiers, sailors, airmen, 
Marines, and Coast Guardsmen serving in the Central Command 
area of responsibility. Day after day on the ground, in the air 
and at sea these courageous and committed troopers perform 
difficult missions against tough enemies under the most 
challenging of conditions.
    Together with our many civilian and coalition partners, 
they have constituted the central element in our effort to 
promote security, stability, and prosperity in the region.
    These wonderful Americans and their fellow troopers 
stationed around the world constitute the most experienced, 
most capable military in our Nation's history. They and their 
families have made tremendous sacrifices, and nothing means 
more to these great Americans than the sense that those back 
home appreciate their service to our country.
    In view of that, and on behalf of all those serving in the 
CENTCOM AOR, I want to take this opportunity to thank the 
American people for their extraordinary support of our men and 
women in uniform. And I also want to take this opportunity to 
thank the members of this committee and of Congress overall for 
your unwavering support and abiding concern for our troopers 
and their families.
    Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 58.]
    The Chairman. General, we thank you so much for your 
comments and your report today.
    Admiral Olson, you are recognized.

 STATEMENT OF ADM. ERIC T. OLSON, USN, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Admiral Olson. Thank you, sir. Good morning, Chairman 
Skelton, Congressman McKeon, other distinguished members of the 
committee. Thank you for the opportunity to appear again before 
this body to highlight the posture of the United States Special 
Operations Command. And it is a pleasure to join my colleagues 
and friends, General Petraeus and General McNabb, this morning 
at this important hearing.
    Your continued support and oversight of United States 
Special Operations Command and its assigned forces has ensured 
that our Nation has the broad special operations capabilities 
that it needs and expects.
    With your permission, I will submit my written posture for 
the statement and open with a briefer set of remarks.
    The Chairman. It will be received, without objection.
    Admiral Olson. Thank you, sir.
    Through United States Special Operations Command's service 
component commands--those being the Army Special Operations 
Command, the Air Force Special Operations Command, Naval 
Special Warfare Command, and the Marine Corps Forces Special 
Operations Command--United States Special Operations Command 
organizes, equips, trains, and provides fully capable special 
operations forces to serve under the operational control of 
regional combatant commanders around the world.
    And as you noted, Chairman Skelton, by a wide margin, our 
force is heavily committed to supporting operations in the 
Central Command area of responsibility under the operational 
command of General Petraeus.
    On an average day, though, over 12,000 members of the 
special operations forces are present in over 75 countries. 
They conduct a wide variety of activities, ranging from civil 
military operations like local infrastructure development in 
benign environments, to training counterpart units off and on 
the battlefields, to conducting counterterrorist operations 
under extremely demanding and sensitive conditions, and dozens 
of other activities in hundreds of locations.
    The indirect and direct actions conducted by special 
operations forces are intended to support each other in 
contributing to environments where security and stability can 
be further developed and sustained by local organizations and 
forces. In fact, nearly every mission performed by special 
operations forces is in support of an indigenous partner force.
    As you know, special operations forces do what other 
military forces are not doctrinally organized, trained, or 
equipped to do. The powerful effects of special operations 
forces in the areas where they are properly employed are often 
recognized as game-changers, and our force operates very 
effectively in small numbers, in remote regions, often with a 
low profile and under austere conditions.
    The deployment rate of special operations forces is high, 
and although the demand is outpacing the supply, I remain firm 
in limiting our requests for manpower growth to the range of 
three to five percent per year. And if approved, the 
president's fiscal year 2011 budget request would growth 
special operations forces personnel by about 4.5 percent.
    The overall baseline budget would grow by about 5.7 
percent, to just over $6.3 billion, with most of the increase 
in the operations and maintenance accounts. And significantly, 
the overseas contingency operation [OCO] funds, those that 
cover the immediate costs of war, would increase by $460.0 
million compared to 2010, bringing that account to about $3.5 
billion, for a total fiscal year 2011 U.S. Special Operations 
Command budget of just over $9.8 billion.
    This is sufficient to cover our current level of special 
operations-peculiar activities, as long as we are able to 
depend on the Army, Navy, Air Force, and Marine Corps for 
service-common items and support.
    The budget and acquisition authorities held by the 
commander of Special Operations Command are similar to the 
military departments', although not on the same scale. They are 
essential to meeting the emergent needs of an innovative force 
with a unique mission set, and this applies equally to United 
States Special Operations Command's research and development 
[R&D] authorities, which enable rapid application of science 
and technology to meet urgent operational needs.
    In my role as the commander responsible for the readiness 
of the special operations force, I give high priority to 
training and education programs, and to influencing where I can 
the career development of special operations personnel.
    Along with the pure operational skills that enable success 
in very complex and demanding operational environments, 
language skills, and subregional expertise remain primary focus 
areas.
    The special operations community, of course, includes the 
families of our servicemen and women. And caring for our 
injured and wounded and for the families of those killed in 
action is among our most solemn responsibilities.
    We are proud of our many successes in returning wounded 
warriors to their teams and of our lifelong commitment to those 
who are unable to do so.
    You and all Americans can be fiercely proud of the special 
operations forces. They are fit, focused, supremely capable, 
and incredibly courageous. They do have impact well beyond 
their relatively small numbers. And I am deeply honored by this 
opportunity to represent them to you today.
    I stand ready for your questions.
    [The prepared statement of Admiral Olson can be found in 
the Appendix on page 115.]
    The Chairman. Admiral, thank you very much. General McNabb, 
please.

   STATEMENT OF GEN. DUNCAN J. MCNABB, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

     General McNabb. Chairman Skelton, Congressman McKeon and 
distinguished members of the committee, it is my distinct 
privilege to be with you today.
    I am especially honored to be here with General Petraeus 
and Admiral Olson, two of our Nation's greatest leaders and 
warriors and friends that I absolutely respect and admire.
    Throughout 2009, the United States Transportation Command 
faced tremendous operational, logistic, and geopolitical 
challenges. And we asked for and received unparalleled 
performance from our global enterprise.
    We are charged with synchronizing and delivering an 
unmatched strategic global transportation and distribution 
capability and producing logistic superiority for our Nation 
where and when needed by the combatant commanders we support. 
And we have done that.
    Our total force partnership of active-duty, reserve 
components, civilian, contractor, and commercial industry 
colleagues answered every call and improved with every 
challenge.
    It is our people who get it done. It is the 145,000 
professionals working around the world, day in and day out, 
producing one of this Nation's greatest asymmetrical advantages 
and enabling combatant commanders such as General Petraeus and 
Admiral Olson to succeed anywhere in the world by providing 
them unmatched strategic life and end-to-end global 
distribution.
    In support of CENTCOM and working with our ambassadors, the 
State Department and OSD [the Office of the Secretary of 
Defense], it was our logistics professionals, working hand-in-
glove with General Petraeus and his staff, that created the 
northern distribution network to complement the southern supply 
lines coming from Pakistan.
    In one year's time, through productive relationships with 
Northern Europe, Russia, Central Asia, and the Caucasus, over 
8,400 containers of cargo have moved by commercial air, ship, 
truck and railroads, and the amount continues to climb.
    It is our joint assessment teams, requested by General 
Petraeus and General McChrystal, finding ways to increase the 
flow of supplies through existing air and surface hubs and 
establish new intermodal and inter-air sites like Shaikh-Isa 
Air Base in Bahrain and Mazar-e-Sharif in Afghanistan.
    It is our total force air crews dramatically increasing the 
amount of air drops to our war fighters in Afghanistan, finding 
innovative ways to deliver over 29 million pounds of supplies 
to forces in remote areas, getting our forces what they need, 
while also getting convoys off dangerous roads and saving 
lives.
    Through the persistence of our people and working with 
CENTCOM and all of ``Log Nation'' [Logistics Nation], we are 
meeting the president's direction to surge forces to the OIF 
[Operation Iraqi Freedom] theater at the fastest possible pace 
on General Pace's plan, while meeting the needs of all of our 
other war fighters.
    Our pace was just as swift in Haiti. The earthquake created 
a chasm of isolation for the Haitian people. Our people spanned 
the divide to lift spirits and save lives.
    Supporting General Fraser and U.S. SOUTHCOM [United States 
Southern Command], it was our air and sea port assessment teams 
and joint port opening units on the ground at Port-au-Prince 
within 48 hours after the earthquake, surveying the damage, and 
building the air and sea bridges of humanitarian supplies and 
personnel that helped save a country and its people.
    It was our air crews, our maintainers, and aerial porters 
who flew over 2,000 sorties, moved 28,000 people, including 404 
adoptees, and delivered almost 13,000 tons of critical supplies 
and material by air.
    It was our medical crews, critical care teams and our 
global patient movement center which transported and helped 
save 341 critically injured Haitians by getting them to the 
care they needed to save life or limb.
    It was our merchant mariners and our commercial and 
military partners that provided over 400,000 tons of life-
saving cargo, over 2.7 million meals and over 5 million liters 
of water to Haitians in need. And we are not done yet.
    It is this logistics team, working from home and abroad, 
that gives our combatant commanders and our Nation the 
unrivaled ability to move. Their actions serve as an example of 
our Nation's strength and an outward demonstration of our 
compassion and our hope.
    I am extremely proud and amazed by the men and women of the 
United States Transportation Command. Chairman Skelton, your 
support and the support of this committee has been instrumental 
in providing the resources our team needs to win, and I thank 
you.
    I am grateful to you and the committee for inviting me to 
appear before you today. I ask that my written statement be 
submitted for the record, and I look forward to your questions.
    [The prepared statement of General McNabb can be found in 
the Appendix on page 133.]
    The Chairman. Thank you, General. And your statement will 
be spread upon the record without objection.
    Thank each of your for your excellent testimony and your 
excellent service. We could not be prouder.
    General Petraeus, when a Missourian I represent walks up to 
me and says, ``How are you doing in Afghanistan,'' what should 
my answer be?
    General Petraeus. I think you should say that we are 
beginning to make progress, having, as I mentioned, taken the 
bulk of last year to get the inputs right, to deploy 
substantial numbers of increased forces, get the right 
organizations, the right people, the right concepts.
    And we are now seeing the first of the outputs. The 
operation in central Helmand province around Marjah and Nad Ali 
and so forth is the first of those outputs in what will be a 
campaign that stretches over the course of the next 12 to 18 
months.
    So I would say that you can say that we are beginning to 
make progress there.
    The Chairman. Are you encouraged, General?
    General Petraeus. I am, sir. Again, we worked very hard 
last year to get the pieces in places. Those pieces are now in 
place or deploying. In fact, Transportation Nation and 
Logistics Nation, two of the great tribes of the Department of 
Defense, have done extraordinary work. We are now about 10,000 
of the 30,000 of this final deployment of forces ordered by the 
president.
    And with those all in place, now we are starting to see the 
kind of progress that we need to make, indeed, to wrest the 
initiative from the Taliban, to support the development of 
Afghan security forces and then to help our partners as they 
develop governance that can be seen as legitimate in the eyes 
of the people.
    The Chairman. Admiral Olson, what is your greatest 
challenge as you lead your forces?
    Admiral Olson. Sir, as we lead the forces, it is ensuring 
that they are in the right places doing the right things at the 
right times, given that the force needs to be optimized and we 
need to employ as efficiently, effectively, as possible.
    And so it is continuous monitorship of what it is they are 
doing in support of our operational commander so that we can 
provide the best advice and counsel to those operational 
commanders regarding the use of the force.
    In terms of equipping, sustaining, and training the force, 
our challenge is always ensuring that we are coordinating 
properly with each of the military services. For the major 
equipment items, it becomes then our responsibility to modify 
for the peculiar special operations missions and working with 
each of the services to ensure that the recruiting, the 
retention programs are satisfactory so that we can retain the 
great force that we have.
    The Chairman. General McNabb, as you lead your command, 
what is your greatest challenge?
    General McNabb. Mr. Chairman, when you think about us 
coming out of Iraq, as you mentioned, going down to the 50,000 
folks by 31 August, at the same time we are plussing up 
Afghanistan, having some disasters like in Haiti and in Chile, 
it is the synchronizing of all of the efforts to make sure that 
we support all of the combatant commanders and all of the needs 
that need to be done, which is what you mentioned, is how do we 
go about doing that?
    Afghanistan is, in particular, a very tough place to get 
into, landlocked, highest mountains in the world surrounding, 
and some very interesting neighbors.
    And we constantly strive to make sure that we create 
options and flexibility that allow us to deal with the unknown 
and give General Petraeus the options that he and General 
McChrystal need to make sure that our forces not only get in 
there but they have everything that they need to win.
    So our big part is to make sure that we build those 
additional options because we know things will happen that we 
have got to be able to either catch up or bring something else 
as the conditions on the ground change.
    And I just--one of my promises to General Petraeus is to 
make sure that he never has to worry that we will get the stuff 
in.
    There is a lot of ways that we do that. We work not only on 
our military side but our commercial side. And we work very 
closely to make intermodal solutions that go from commercial to 
military and make sure that we match our resources with the 
state on the ground.
    In the case of Afghanistan, there are some very tough 
airfields to get into, and we make sure that we match the right 
platforms to the right airfields so that we maximize throughput 
to get General Petraeus and keep on the timeline that he needs.
    The Chairman. Thank you. Thank you, General.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    As I stated earlier, I am concerned that there may be a 
30,000 troop cap for Afghanistan, and it is forcing difficult 
decisions to be made when it comes to fielding certain key 
enablers.
    This cap becomes more disconcerting when you consider that 
some of our NATO allies will be withdrawing forces from 
southern Afghanistan in the coming year due to their internal 
domestic policies.
    General Petraeus, what is the impact of the 30,000 troop 
cap on CENTCOM's currently validated joint urgent operational 
needs statements, as it pertains to force protection, medical 
evacuation, and other key enablers?
    Has CENTCOM modified any validated JUONS [Joint Urgent 
Operational Needs Statement] in order to stay below this cap?
    How is CENTCOM working with General McChrystal to ensure 
that he has everything he needs to execute the mission?
    And while you are thinking of your response, knowing that 
key enablers such as ISR, medevac, and force protection were 
under-resourced before the surge, would it have been more 
prudent to have excluded such key enablers from the 30,000 
troop cap?
    Why is it not in our best interest to ensure that our 
combat forces have all the necessary tools at their disposal?
    General Petraeus. Well, obviously we want to make sure that 
our forces do, in fact, have all the necessary tools. And I 
think it is important to recall, Congressman, that we started 
at the end of 2008 with about 30,000, 31,000 U.S. forces on the 
ground. Through a combination of decisions, some that continued 
into 2009 from President Bush, and then early decisions made by 
President Obama, then the subsequent decision for the 30,000, 
we will have grown from that 30,000 to about 98,000 by the fall 
of this year.
    So we have a very substantial increase, and we have worked 
very hard to make sure that in all of those forces--again, not 
just the 30,000, but starting all the way back in the spring, 
early 2009, that we included in those forces key elements, for 
example, medevac aircraft. We had, I think it was one medevac 
company, aero-medevac company on the ground at the start of 
that. We have gone to three, and we are going to add two more. 
So again, we are making sure that we have the forces that we 
need, the enablers, the critical enablers.
    The only case in which I know of an operational need where 
we have modified that is in the case where we have used 
contractors in instances where we have high-demand, low-density 
elements, and we can thicken the force. Now, that is something 
we have done across the board, but we have also done it in one 
area that I know of in the sense-and-warn device manning where 
we can do it with contractors rather than with military.
    And as to the reassurance, if you will, at the end of this, 
first of all, we obviously should be good citizens and so forth 
and work within, again, I think the commitment that has been 
made. But the secretary of defense was very clear during the 
decision-making process to have some flex that was authorized 
for him. And indeed, he got that.
    And as you probably know, it is a flex of some ten percent 
or so, and it is specifically for the areas that you have 
talked about. It is for the critical enablers, force 
protection, medevac, counter-improvised explosive device [IED], 
so that if an emerging need arises, that General McChrystal can 
come to me, I can go to the secretary with a request for force, 
and we don't have to do anything further with that. So I--we 
feel pretty comfortable with that situation.
    Mr. McKeon. Thank you.
    In your testimony, you state the inability of the Yemeni 
government to effectively secure and exercise control over all 
its territory offers AQAP a safe haven in which to plan, 
organize, and support terrorist operations. This network poses 
a direct threat to the U.S. homeland, as evidenced by recent 
plots, including the attempted bombing of a U.S. airliner on 
Christmas Day 2009.
    As CENTCOM commander, would you oppose transferring Gitmo 
[US Naval Base Guantanamo Bay] detainees to places like Yemen, 
where the government is unable to secure and exercise control 
over its territories, and where Al Qaeda affiliates enjoy a 
safe haven?
    General Petraeus. Congressman, it will always depend, I 
think, on the ability of the country actually to control that 
territory which is its correction facilities. And there has 
been, indeed, an effort to both encourage Yemen and to assist 
Yemen in the development of corrections facilities, keeping in 
mind that as you will recall some several years ago, there was 
an important prison break from Yemen in which a number of 
individuals who are now part of Al Qaeda in the Arabian 
Peninsula were released.
    And I can assure you that the policymakers are very keenly 
attuned to that, and ensuring that there is not a risk as a 
result of that. And so that has been--in fact, I think that is 
why, among reasons, that there have not been detainees released 
to Yemen I think in quite some time, frankly.
    Mr. McKeon. So that is a yes, that you don't think that we 
should be releasing them to countries that really can't control 
the territory?
    General Petraeus. Sir, it is not about controlling their 
territory. It is about controlling their prisons. And if they 
can't control a prison, then--but that is a different issue 
with Yemen than it is controlling their territory. There are 
clearly tribal areas that they don't control, but that doesn't 
mean that it is beyond their capability to control their 
detention facilities. In fact, as you saw in the press 
recently, there is an individual who was detained by them who 
is an Al Qaeda member, and attempted break, and in fact they 
prevented that from happening, so again--or retained him. So 
that is the critical determination, if you will.
    Mr. McKeon. And that is probably--I think that is--we are 
in agreement on that. I wouldn't expect necessarily to control 
their whole territory, but if they can't control the prisons or 
make sure that they can control the detainees that we return.
    General Petraeus. That is the key. And that, I can tell 
you, having been on the periphery of these discussions, is very 
much a focus of the policymakers.
    Mr. McKeon. Thank you, Mr. Chairman.
    The Chairman. Mr. Spratt.
    Mr. Spratt. Thank you all for your testimony and for your 
superb service to our country.
    As I understand it from a budgetary standpoint, this 
request for fiscal year 2011 includes $113.0 billion for the 
security of Afghanistan, excluding Iraq. Out of that amount, 
$14.2 billion will go to train and equip the Afghan national 
forces.
    My question is, what is the optimum size? What force are we 
building towards? And after we draw down our forces, is it 
realistic to think that they can support forces of this 
magnitude without substantial subsidies from us and our allies? 
And what can we expect from our allies? Will they help shoulder 
the burden of maintaining these forces there for some time to 
come?
    General Petraeus.
    General Petraeus. Congressman, right now, we are building 
toward a target--a total of Afghan national security forces of 
army, police, border police, and some other categories, that is 
305,600. The ultimate number is yet to be determined, and 
clearly we have to see both how the security situation 
develops, how the expansion of those forces develops because, 
indeed, this is very challenging to add 100,000 total between 
now and about 18 months from now. This is October 11, 305,000.
    And sometime as we approach that period, again taking into 
account a lot of different factors, will be determined what the 
ultimate desirable end-strength is, and obviously cost is one 
of those factors, given that this is a country that doesn't 
have anywhere remotely near the resources of, say, Iraq, 
although the potential there is extraordinary in terms of its 
mineral wealth and some other blessings that it has, but they 
have to be extracted and gotten to market.
    So that is what we are headed to right now. There is a keen 
recognition that, again, international donors, the U.S. will 
undoubtedly be prominent among them, will have to help sustain 
that force as we reduce our forces.
    I would point out, though, that it is a lot cheaper to have 
a very substantial number of Afghan forces than it is to have a 
much smaller number of U.S. forces deployed in Afghanistan if 
you can get to the point where those Afghan forces can indeed 
transition and take tasks from our forces. So there is actually 
a fairly compelling business case for doing that, even 
recognizing that we will undoubtedly be the ones probably most 
helping to sustain them.
    But I would note that there are some other very important 
partners, Japan foremost among them, who are providing 
substantial resources as well, and there are a lot of countries 
that have an interest in ensuring that Afghanistan does not 
again become a sanctuary for transnational extremists.
    Mr. Spratt. Can you give us cost range? I couldn't agree 
with you more about having their forces as opposed to our 
forces being responsible for the security of their own country. 
But can you give us a likely cost range for that cost?
    General Petraeus. Sir, if I could provide that for the 
record, again, just to make sure that we have that precise. But 
as we have gone through, for example, looking at how much it 
cost for this additional 30,000 forces, and then we have looked 
at how much we are going to spend for the 305,000 Afghan 
national security forces, again it is a heck of a lot cheaper 
to do them than to do a subset, a very much smaller number of 
U.S. forces, but we will get that for the record for you.
    [The information referred to can be found in the Appendix 
beginning on page 157.]
    Mr. Spratt. One last question, still on the budget. The 
president's budget post-2011 includes a plug--there is not an 
actual number, but there is a reservation of $50.0 billion each 
year for the next 4 years after 2011. I know that that is just 
a plug. It is not a scientifically derived number or anything 
like that. But the president's budget, was that number 
included--takes the deficit from $1.556 trillion down to $706.0 
billion in 4 years. We cut the deficit in half, which I think 
is a worthy goal.
    But is it realistic to assume that in the out years, say 
2013, 2014, we can have a supplemental cost for this 
engagement, this type of security commitment, down to $50.0 
billion?
    General Petraeus. Sir, I think hard--frankly, quite hard to 
tell right now. We obviously are going to be down very, very 
substantially in Iraq. You know the policy to begin the 
transition of some tasks in July of 2011, and to begin what the 
president has termed a responsible--a beginning of a 
responsible drawdown of our forces. But trying to project out 
to that time I think would be hazardous right now.
    Mr. Spratt. Thank you, sir.
    The Chairman. I thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Thank you, gentlemen, for your service.
    General Petraeus, I am increasingly asked a question for 
which I do not have a good answer. I hope that you can help. I 
know that yours is not to reason why; yours is but to do and 
die, but I hope that anyhow you can help me with an answer to 
this question.
    The question starts out by noting this is--the war in 
Afghanistan is an enormously asymmetric war--an old artillery 
shell and a few dollars worth of electronics for the IED, and 
we spend billions of dollars, I think that the MRAP [mine 
resistant ambush protected vehicle] program alone was something 
like $40.0 billion--probably the most asymmetric war in the 
history of the world.
    And then the questioner goes on to note that even if we are 
successful in Afghanistan, where no one else has been 
successful--Alexander the Great failed, the British empire 
failed twice, the Soviet empire failed--and even if we are able 
to do what no one else has ever done, the questioner notes that 
we will have accomplished little because the bad guys will 
simply go into Pakistan.
    And then, if we spend how many more billion dollars and how 
many more billion dollars and how many more dead kids over 
there, and clear them out of Pakistan, they will simply go to 
Yemen and Somalia.
    And the question, you say we cannot provide them safe 
sanctuary. Why are we involved in this hugely asymmetric war 
where what we want to accomplish is not doable, because, even 
if we are successful there, they simply go across the border to 
Pakistan. How many more years? How many more billion dollars? 
How many more dead of our young people? If we drive them out of 
there, they go to Yemen and Somalia.
    If we can't deny them safe sanctuary, why are we there, 
they ask me.
    General Petraeus. Well, first of all, Congressman, with 
respect, I think that others have actually succeeded in 
Afghanistan. I think that if you go back and look at the record 
of British activities there, they did get defeated on occasion, 
but they also, then, would figure out a formula that would 
enable decades of peace, of an arrangement that allowed 
security and stability in that country.
    Alexander the Great went so far as to marry an Afghan 
woman, I think, to solidify the agreement that ultimately 
allowed him to extricate his forces and to retain, again, 
achieve stability in his wake.
    But, if I could, I think that the lesson of the fight 
against extremism--against transnational extremism, not a fight 
limited just to the Central Command area of responsibility, but 
certainly one that is concentrated there, is that you have to 
put pressure on the transnational extremists wherever they are, 
that you cannot do whack-a-mole.
    I think you are correct to say that it is a substantial 
task, but if all we do is to deal with the challenges in 
Afghanistan and prevent Afghanistan from again becoming a 
sanctuary, as it was. Al Qaeda, of course, planned the 9/11 
attacks in Kandahar when the Taliban was in charge of 
Afghanistan.
    The initial training of the attackers was conducted in Al 
Qaeda training camps in eastern Afghanistan, before they went 
to Germany and then, ultimately, to U.S. flight schools.
    So, yes, we have to succeed in that, but we, then, also 
have to help our Pakistani partners, noting that they are the 
ones doing the fighting on the ground, and to, through a 
sustained, substantial commitment for them, and a reassurance 
that we are going to be their strategic partners that helps and 
enables them to deal with this extremist threat that their 
people have come to see as the most pressing threat to their 
very existence, as they know it.
    So, again, you have got to go--but, again, we also have to 
help Yemen. And we are doing that. Now, again, right now, Yemen 
is contributing enormously, obviously, in the effort. And that 
is something we have, again, got to sustain. We want to do it 
almost as a preventive counterinsurgency effort, rather than 
end up where we have to do a true counterinsurgency campaign.
    But so that is how I would craft that, with respect, sir.
    And it might be that my Special Operations comrade would 
have some thoughts on that as well, given that his forces are 
engaged in this worldwide.
    Admiral Olson. Sir, I would only add the point that--
confirm that there are Special Operations forces engaged in 
some relatively low-level training relationships across many of 
the countries to which our adversaries may move when they are 
ultimately forced out of Afghanistan.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you, all three of you, for your service to this great 
country and all the sacrifices you make to serve us. Thank you 
so much.
    General Petraeus, and all three of you, I have a few 
questions for you on equipment needs in Afghanistan.
    General Petraeus, Iraq and Afghanistan present two wholly 
different terrains and environments. Is the equipment in Iraq 
the right type of equipment to continue the fight in 
Afghanistan?
    And not only am I worried about our equipment. What about 
the equipment from our coalition forces? Are they up to par to 
continue the mission? What do we do after we downsize in Iraq? 
Will we be able to use some of that equipment?
    Maybe you can enlighten the committee on my question.
    General Petraeus. Thanks, Congressman. It is a great 
question as well.
    The fact is that some of the equipment we use in Iraq is 
fine for Afghanistan--some helicopters, certain of the vehicles 
and so forth--but some is not.
    In particular, the MRAPs that were so important in 
providing protection for our forces in Iraq, many of them are 
too large--the different types are too large for the roads in 
Afghanistan, which are, obviously, much less developed than are 
the roads in Iraq.
    And, in fact, that is why, of course, the Department came 
to you for the funding for the so-called M-ATV [MRAP All-
Terrain Vehicle], the all-terrain MRAP vehicle. And, in fact, 
the requirement as it exists right now in Afghanistan is for 
some 14,500 MRAPs--the MRAP family of vehicles, 6,500 of those 
are the smaller of the original MRAPs and 8,000-plus are the 
new all-terrain vehicle MRAPs.
    And, again, we are very appreciative of the rapid response 
by Congress and also by industry because they have expanded 
their production of the all-terrain MRAPs substantially.
    So that is a case in which what worked in Iraq doesn't work 
in Afghanistan. And as we recognized that, rapidly we changed.
    Now, the fact is that some of our coalition partners have 
adequate--again, to continue with MRAPs, have MRAP-like 
vehicles, vehicles with V-shaped hulls and good protection. 
Some do not.
    And we are working to help relatively small numbers, 
frankly, and from the smaller countries, but we are working to 
help them also so that we can extend that force protection to 
them. And we have plans to do that, and we are proposing those 
to the secretary because he just returned from a NATO 
ministerial in which that was a key topic.
    And then, are we able to transport some from Iraq to 
Afghanistan? Absolutely. We do a business case. We have a 
prioritization for--first it goes to the units in Iraq if they 
need it. In some cases, it will go to Iraqi security forces if 
the business case is not such that it is cheaper to take it out 
of Iraq, refurbish it, say in Kuwait, fly or sail it over to 
Pakistan and then Afghanistan.
    And, again, Transportation Command obviously plays an 
enormous role in all of this and has opened up a number of 
different routes, as General McNabb mentioned, in coordination 
with our State Department colleagues, with the logisticians 
from CENTCOM and so forth.
    So that is also ongoing as well. And, again, there is a 
process that determines the prioritization, and there is a 
business calculation, literally, on whether it makes sense from 
a business perspective to transport it there or just have it 
made new here and transport it out there.
    Mr. Ortiz. And I just have one last question for General 
McNabb. I know that you move so much equipment, not only to 
Afghanistan but moving equipment back from Iraq. Do you have 
sufficient personnel and sufficient equipment to do your job, 
or do you need--what do you need that maybe we can help you 
with?
    General McNabb. Congressman, thanks for your question. It 
kind of goes along the lines of what I said at the beginning is 
the support of this committee has been huge on allowing us to 
adjust to the difference, for instance, not only in Iraq, but 
in Afghanistan.
    Given Afghanistan's--the terrain in Afghanistan, give you 
the example of C-130E model, could carry 6,000 pounds around 
Afghanistan. An H model could carry 24,000 pounds. A J model 
could carry 40,000 pounds.
    So the portion that you have been able to help us 
recapitalize our H models and make sure we get the J models set 
has really allowed us to have the flexibility to deal with 
moving stuff around that theater in support of General 
McChrystal and General Petraeus.
    Defensive systems, obviously a very different kind of war, 
very dangerous. Given our crews, the defensive systems they can 
do. Many of you all, in fact I think all of you have flown in 
on our airplanes where you have done in-random approaches. Our 
crews have night vision goggles. They have the right cockpits. 
They have the right situation awareness to do that safely, 
things that I can't hardly believe that our young folks do.
    And when I go fly with them--and every once in a while I 
do--those young captains will say, ``Come on over here, son. 
Let me show you how we fly in this war.'' They are just 
tremendous.
    But it is those kinds of things that allow us to modify our 
equipment and make sure that it is applicable.
    Obviously, the C-17 has played huge in its ability to get 
into small airfields and take advantage of limited ramp space. 
And our job was to mix and match as we do that.
    On the--and I will tell you, on the side, your--in fact 
yours and Congressman Taylor's and the whole committee's 
constant support of our sealift, both our U.S. flag fleet--they 
have done superbly in meeting the needs that we have had.
    For the reset coming out of Iraq right now, they are taking 
care of all of that movement. I don't have to activate a 
vessel, because they have got this.
    Merchant mariners are doing superbly. And they have been 
able to, over this eight years of war, really adjust the way 
they do things and the way we work with them to make sure that 
we can handle these surges.
    The same thing on our U.S. air fleet. Their ability to 
handle the increased flow of folks. In many cases, we can't 
take the forces directly into, for instance, into Afghanistan. 
So we will take them to Manas, transload them onto C-17s and 
130s, and take them in for that last portion. But they have 
been superb on stepping up to any challenges we had.
    Both last year's surge and this year's surge, they said we 
have given them plenty of notice, and they make sure that they 
are ready to handle whatever we can give them. And we mix our 
commercial with our military to make sure that we are taking 
full advantage of both.
    Obviously, it is much cheaper for us to use commercial 
where we can and add that strength to that U.S. flag. Both air 
and sea fleet has been superb. And your support of that has 
really made a big difference.
    Mr. Ortiz. Again, thank you for your service. We are proud 
of the work you have done. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. We thank the gentleman.
    There are three votes pending on the House floor. If our 
witnesses will indulge, we will go vote and return.
    And the next witness should be Mr. Jones.
    [Recess.]
    Mrs. Davis. [Presiding.] We are going to resume again. I 
want to thank everyone for their patience.
    Call on Mr. Jones.
    Mr. Jones. Madam Chairman, thank you very much.
    Gentlemen, thank you for being here.
    General Petraeus, in a March 14, 2010, article in The 
Washington Post entitled ``At Afghanistan Outpost Marines Go 
Rogue or Leading the Fight Against Counterinsurgency,'' the 
question of where Marines are being deployed in Afghanistan and 
the counterinsurgency--excuse me--tactics that those Marines 
are employing appears to be a sticking point to the commanding 
general of United States forces in Afghanistan.
    Aside from being played in the newspaper, which I am very 
disappointed that it was in the newspaper, this is obviously a 
point of contention in your headquarters. Could you please give 
us your views on this issue?
    General Petraeus. Congressman, I think the Marines have 
been deployed to the right places for the right reasons and are 
carrying out admirable operations. It is as simple as that.
    Mr. Jones. May I ask your opinion of the fact--you can't 
stop the press, that I realize, but may I ask you, would you 
had rather not seen this type of article in the newspaper?
    General Petraeus. I would rather not have seen it, to be 
sure.
    Mr. Jones. Okay. Thank you.
    Now I have a second point that I want to bring to your 
attention, and that has to do with rules of engagement [ROE] or 
what is called tactical directives.
    In Marine Times of November the 2nd of 2009, ``Caution 
Killed My Son, Marine Families Blast Suicidal Tactics in 
Afghanistan.'' And then, in a later time, March 1 of 2010, 
``Left to Die, They Call for Help, Negligence''--
``Negligent''--excuse me--``Army Leadership Refuse and Abandon 
Them on the Battlefield.''
    Last night I had a couple of hours of conversation with the 
father of this Marine who was killed, and his comment was to me 
that if we are going to, in this strategy that we are using--
and I cannot judge, you are the professional, the three of you, 
and I respect you for being the professionals--but I am 
beginning to hear more and more concerns from parents.
    I have Camp Lejeune in my district, Cherry Point Marine Air 
Station, a lot of retired Marines, and I am beginning to hear 
from these families that they do not understand why in certain 
situations that you are caught in a situation where you call 
for help and it doesn't come, or you call for helicopter cover 
where they have seen Taliban going into a cave, and then they 
are told when the helos get there that, ``We cannot fire into 
the cave because we can't see them.''
    Would you say that these rules of engagement, that we are 
in a situation where maybe at some point in time it needs to be 
reconsidered, because I cannot continue to speak to a parent 
whose son was killed and they believe that the tactics was part 
of the reason that he was killed.
    General Petraeus. Well, there are really two different 
issues, if I could separate them for you, Congressman.
    Mr. Jones. Please.
    General Petraeus. One is the speed of response. That is a 
totally different issue. And whether it is response by close 
air support, which I think was the case in this particular 
situation and was investigated and I think is still ongoing, 
and so I am not going to get into the specifics of it, but we 
are committed to responding to the needs of our troopers as 
rapidly as possible, whether it is with close air support 
[CAS], indirect fire, attack helicopters or medical evaluation.
    And I personally track, we have metrics that we see on 
that. I actually take some of those to the Secretary of 
Defense, which gives you some sense of the scrutiny that he is 
giving to the issue. And by the way, one of these was on 
medical evacuation. That is what helped make the case for the 
additional medevac companies, which he very clearly recognized 
was needed and gave the order to provide, in fact.
    So that is a separate issue. That has to be provided.
    There is another issue, and that is the issue of the 
tactical directive issued first by General McKiernan and then 
refined by General McChrystal. This was issued because the loss 
of innocent civilian life in the course of military operations 
was threatening to undermine the very strategy, the very policy 
that we are endeavoring to carry out in Afghanistan.
    And after an enormous amount of, again, very careful 
analysis and review and so forth, this directive was published.
    Now, right up front in it, it says that no one is ever 
denied the right to self-defense, and nor will we ever hesitate 
if someone is pinned down by fire in responding to ensure that 
those troopers never feel as if they are fighting with their 
hands tied behind their back.
    Having said that, there are tactical situations in which, 
if you are not pinned down and decisively engaged and can break 
contact because you don't know precisely who is in the house 
from which there may be fire on you, where you hesitate in 
dropping a bomb or reconsider because there may be innocent 
civilians. And we have had a number of cases in which that has 
happened, and there are cases recently, in fact, again, and we 
have to reduce these cases. But we will not do it by risking 
the lives of our soldiers.
    And so that is the balance that we have to strike. This is 
not uncommon to us. We went through this in Iraq as well. And 
there are cases where you literally back out of a fight rather 
than continue to prosecute it, long as you can do that, if you 
are not sure exactly who might be on the receiving end of a 
500-pound bomb or attack helicopter, Hellfires, or something 
like that.
    So that is what we are trying to achieve.
    Mr. Jones. Thank you, General.
    Thank the chairman.
    Mrs. Davis. Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair.
    And, gentlemen, thank you for your service, your long years 
of service. And we so much appreciate you and your troops.
    I have a question for each of you, if I can get them in, in 
my five minutes.
    First of all, General Petraeus, one thing I want to say is 
one of your troops in the region is one of my employees, Army 
Reserve Captain Devon Cockrell is on his second mobilization. 
The first one was in 2003 and 2004 for 17 months, and this one 
he is getting toward the end of his second year. And as happens 
when you know somebody, they become the symbol for----
    General Petraeus. Right.
    Dr. Snyder [continuing]. Your 220,000 troops. And we wish 
him and his wife and three little girls well, as we do all the 
troops and families that are under your command.
    General Petraeus, I wanted to give you a chance to talk 
about two nations that are not in your area of concern, but 
relate to the operations both in Afghanistan and Iraq, and that 
is Turkey and Armenia. Turkey has been a long-term ally, 
Armenia is helping. Would you--any comments you might want to 
make on the strength of the relationship between Turkey and the 
United States, Armenia and the United States, and the 
significance of the efforts by the leadership of those 
countries--two protocols to normalize relationships between the 
two of them?
    General Petraeus. Well, first of all, if you would convey 
my thanks as the combatant commander to the captain and to his 
family.
    Second, the country with which I have worked most closely, 
noting again that it is obviously in the European Command 
[EUCOM] area of responsibility, but I worked with Turkey when I 
was the Multi-National Force-Iraq [MNF-I] commander, made 
several trips up there, have done that actually as the Central 
Command commander as well.
    They have forces deployed in Afghanistan. In fact, they are 
operating with considerable skill, very impressive, in the 
Kabul district. In fact, that is their area of responsibility 
there.
    I think General McNabb probably should talk about the 
importance of Incirlik and some of the different bases that we 
use there.
    We have quite a close intelligence relationship with them. 
As you know, the PKK, an extremist organization which has 
caused loss of innocent civilian life, killed Turkish security 
force members and so forth, has operated from that mountainous 
region in the border between Iraq and Turkey, and so there has 
been a degree of collaboration there as well.
    So overall--and then of course there is, understandably, 
Turkish involvement in a relationship with Iraq which, again, 
all of us sought to work together, as we did to promote the 
relationship of Iraq with its other neighbors as well. They 
have substantial investment. I think it is probably now in the 
order of $10.0 billion in northern Iraq alone.
    So, again, there were--there is a lot of intersection 
between the activities that we have pursued in Iraq and that we 
now have in the greater area of responsibility in Central 
Command overall.
    And, again, I might ask General McNabb to talk about the 
basing and how important that is to us.
    General McNabb. Yes, Congressman, Incirlik is a really 
pivotal base for us, both for the resupply of Iraq and for the 
resupply of Afghanistan. In fact, it is in the neighborhood of 
46 percent of our air sustainment goes through Incirlik. We 
have C-17s bedded down there, as well as some 135s. It is right 
along the route to Afghanistan. And Turkey has been tremendous 
in allowing us to use that base for the movement of cargo and 
refueling aircraft through there.
    Dr. Snyder. I am going to interrupt you, if I might.
    General Petraeus, any comment about the protocols between 
Armenia and Turkey?
    General Petraeus. It is not something that I----
    Dr. Snyder. All right.
    General Petraeus [continuing]. I have any----
    Dr. Snyder. Admiral Olson, it is my understanding that we 
have 55 different bases or commands that have some kind of 
training course or school on special ops. Is it concerning that 
we have 55 different teaching institutions of some kind? Are we 
sure that everybody is learning the same thing or do we have 
problems with it having different courses, different course 
work, different doctrines? What is the status of that?
    Admiral Olson. Sir, I would have to confirm the number 55 
for you. That is the first time I have heard that number.
    But in concept, each of our component commanders--Army, 
Navy, Air Force, Marine Corps, Special Operations commanders--
assumes responsibility for training his force to a standard 
that meets his need. From our headquarters, we monitor that 
standard, we support what it is they are doing with their 
training bases.
    There is a partnership with each of the services in terms 
of sharing training capabilities. We rely on big Army, Navy, 
Air Force, Marine Corps, for much of the readiness of our 
force.
    And then we do Special Operations' peculiar training on top 
of that. But in concept, we--I--do not favor identical training 
for all elements of the force. I think it is essential in the 
spirit of jointness that each of our components train in the 
way that it best can, within its culture, within its 
leadership, within its peculiar equipment. Maritime equipment 
doesn't necessarily fit in a mountaineering kind of 
environment.
    So there are very peculiar training needs that we need to 
be flexible enough to adjust to.
    I am not defending the precise number of 55, but I think in 
concept we have got to understand that a breadth of training 
and great flexibility in how we provide it is important.
    Thank you.
    Dr. Snyder. General McNabb, I did not get to my C-130, 
but----
    Mrs. Davis. No. We are going to have to go on.
    Mr. Kline.
    Mr. Kline. Thank you, Madam Chair.
    Thank you, gentlemen, for being here, for your 
extraordinary service, and for the unbelievable, fantastic 
service of the forces under your commands.
    General Petraeus, I want to kind of pick up, if I can, a 
little bit where Dr. Snyder was when he was talking about his 
staff or his constituent who was serving in--this week, in 
fact, tomorrow, my son leaves to go back under your command in 
Afghanistan, his third combat tour. And he is proud to do it, 
and I am proud of him.
    But, thinking of him and all of our sons and daughters that 
are serving, particularly in your command, I want to make sure 
that they have everything that they need. And so, we are going 
to look at the budget and try to provide that.
    We want to make sure they have every chance to succeed. And 
I am just a little bit reluctant to do this, but I am going to 
quote the same article that my friend, Mr. Jones, was quoting. 
The very last paragraph, General Nicholson is quoted as saying, 
``The clock is ticking. The drawdown will begin next year. We 
still have a lot to do, and we don't have a lot of time to do 
it.''
    And so I think the concern that I have and others have is 
that we don't want to be in the business of letting that clock 
push us to doing something we ought not to be doing or doing 
something too hastily. Could you just address that for just a 
minute?
    General Petraeus. I could. I think, again, useful to paint 
the context that that derives from.
    The president at West Point was sending two clear messages. 
One was a message of increased commitment--the additional 
troops, civilians, funding Afghan security force support. And 
then a message of urgency. And that is what July 2011 was 
connected to.
    And that message was not just for domestic public opinion. 
That message was directed in some cases at leaders in the 
region, leaders in Kabul, leaders, perhaps, in uniform and so 
forth.
    And, interestingly, that has had an effect. We do think 
that we see a lot greater engagement by certain leaders in 
certain activities there because there is an awareness that 
this is not going to go on forever.
    Now, having said that, that speech was very carefully 
articulated to say that in 2011--July 2011--we will begin a 
process of transitioning, conditions-based, and begin a process 
of withdrawing in a responsible manner. And I think those are 
very key adjectives or adverbs, whatever it is there.
    Mr. Kline. And I agree. I just am a little bit concerned 
that in amongst our own forces, that if they are feeling an 
urgency--I mean, that is a big command responsibility that you 
and General McChrystal and others have to make sure that this 
is translated into the kind of operations we want to conduct.
    General Petraeus. Right. And in the region, I might add, as 
well. Because we have made--we have worked hard to try to make 
sure that leaders in the region don't think that that is an 
indication that come July 2011, we are going to race for the 
exits and turn off the light. That is not going to be the case.
    But it is very important to reassure some of those regional 
leaders as well, because if there was an expectation that we 
were going to do that, they would, obviously, act differently.
    Mr. Kline. Yes, thank you.
    Mrs. Davis. Mister----
    Mr. Kline. I am sorry. I still have a minute and 34 
seconds, I hope, Madam Chair.
    I am going to try to get in one more quick question. And, 
again, I want to go back to you, General Petraeus, because we 
just had elections in Iraq. And the results were a little bit 
different than what I thought they might be. And we have had 
some rising influence of Muqtada al-Sadr and others.
    Can you just--I have a minute and 13 seconds--can you 
address----
    General Petraeus. I would be happy to.
    First of all, the--I think the surprise is that you have 
running almost neck-and-neck right now, with 24 percent of the 
vote each, and still to be sorted out--it is only 80 percent or 
so has been counted--still to be sorted out how that translates 
into Council of Representative seats.
    But you have Prime Minister Maliki and former Prime 
Minister Allawi. Maliki's coalition being predominantly Shia, 
but it has some cross-sectarian, not as religiously affiliated 
as the other major Shia coalition of which the Sadr movement is 
a part.
    And that movement has only gotten about 17 percent. And the 
Sadr movement is one of the two major, but not necessarily, and 
there are several others in there as well.
    So I am not completely sure I share the assessment that I 
saw in a news account today that this shows that the Sadr 
movement--the Sadr movement may be more prominent in that 
coalition, but that coalition, once again, as it did in January 
2009 provincial elections, has not done that well in the 
overall national election.
    So you have Prime Minister Maliki and then you have Prime 
Minister Allawi, a Shia, former prime minister, with--leading a 
largely Sunni but, again, cross-sectarian alliance and quite 
and avowedly secular alliance.
    And then you have the Kurdish bloc with over 20-some 
percent as well, as I recall.
    Now, that indicates some real interesting dynamics. Keep in 
mind that the individual parties that make up a coalition are 
not bound to stay with the coalition, too. So the----
    Mr. Kline. So we are in for some exciting times here.
    General Petraeus. It is going to be quite interesting. I 
think there could be some--some high drama in the Iraqi 
political scene or in Iraqacy, as we call it.
    Mr. Kline. I hope it stays to peaceful drama.
    I yield back.
    Mrs. Davis. Okay, Mr. Kline, thank you.
    Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chairman.
    And thank all of you gentlemen for your service.
    And particularly, since I have Admiral Olson and General 
Petraeus here, there has been a lot of talk of rules of 
engagement. On a recent visit down to Kandahar, like all of us 
get to do, I got to visit with some kids from home.
    One was on his third deployment. Another one was on his 
second deployment. But what I found interesting is that both of 
them told me they thought they were going to make a career of 
the Army, but both of them told me they were getting out after 
this deployment, over frustration over the rules of engagement.
    One of them, the guy on his third tour, had an observation 
that he felt like the rules of engagement were as strict in 
Afghanistan now as they were after four or five years in Iraq. 
Iraq, obviously, they choked them down as time went on.
    General Petraeus. Right.
    Mr. Taylor. And particularly he expressed absolutely no 
confidence in teaming with the Afghan police. He thought going 
on a search with them was just absolutely a waste of their 
time, did nothing but endanger their lives, and didn't 
accomplish much.
    So, seeing as how, since the publishing of the book, ``Lone 
Survivor,'' there has been a lot of talk over rules of 
engagement. I am just curious, do rules of engagement come 
solely from uniformed military personnel?
    General Petraeus. Absolutely.
    Mr. Taylor. No one----
    General Petraeus. Absolutely.
    Mr. Taylor. No one wearing civilian clothes is involved in 
making the rules of engagement?
    General Petraeus. That is correct. Now, don't get me wrong. 
There is interface with Afghan leaders. I mean, that is one of 
the challenges that we have. Again, you have got to operate in 
the context where you are fighting, just as I had to with Prime 
Minister Maliki.
    You know, there were times where I sat down and said, in a 
sense, will the traffic bear this operation tonight? And 
would--if it didn't, if my diplomatic wing man, the great Ryan 
Crocker, said no, then we would rethink that.
    So, again, you do have to operate in the context. But these 
rules are absolutely developed by uniform ranks. I mean, that 
is how we do this.
    There is a point at which they are approved, obviously, in 
the chain of command. But it is above my level. And they 
haven't had--there has been no direction. This has been bottom-
up, not top-down.
    Mr. Taylor. I guess my follow-up question is has anyone in-
theater been charged--or how often has it happened that someone 
has been charged with violating the rules of engagement?
    General Petraeus. Let me answer that for the record, if I 
could? There are certainly cases in which disciplinary action 
has been taken. Now, whether you would say that that is a--
because of a rule of action or because of some other form of 
lack of performance, I think would--is what we will need to 
determine.
    [The information referred to can be found in the Appendix 
on page 157.]
    Mr. Taylor. Okay.
    Admiral Olson, the case involving the three East Coast Navy 
SEALs [SEa, Air, Land Teams]. For the record, were the charges 
filed by the detainee? Were they filed by other uniformed 
military personnel? Were they filed by other Navy SEALs?
    Again, there has been a lot of--you know, the folks on talk 
radio have obviously gotten people excited about this issue. I 
would welcome whatever you can tell us, given the 
circumstances, about the incident.
    Admiral Olson. Yes, sir. I am reluctant to talk about it. 
It is not in my area of responsibility. And it--although I 
can----
    Mr. Taylor. I guess the first question is, who actually 
filed the charges? Do you know that?
    Admiral Olson. Sir, I----
    Mr. Taylor. Was it someone in uniform or was it the 
detainee?
    Admiral Olson. Sir, I will take that for the record. I have 
received mixed information on that myself. I----
    [The information referred to can be found in the Appendix 
on page 157.]
    Mr. Taylor. General Petraeus, would you know, sir?
    General Petraeus. I don't think it is--a detainee can't 
file charges the last I checked. I mean, anytime that--and we 
probably ought to go into a closed session and explain what is 
really happened on this case, because it is, A, an ongoing 
case----
    Admiral Olson. It is.
    General Petraeus [continuing]. And, B, again, I think 
probably we ought to arrange for a briefing for you.
    Mr. Taylor. Okay. General, for the record, since it, again, 
has been widely publicized, I guess the questions would be who 
actually filed the charges, uniformed or nonuniformed? Did the 
SEALs elect to go the court-martial route as opposed to 
nonjudicial punishment? That is my understanding, that it was 
their decision. And when are the cases pending?
    And, again, I received, I have an extremely pro-military 
district and I get a heck of a lot of mail on this issue. And I 
would like to be able to give folks a decent answer.
    But, again, thank all of you for what you are doing.
    General McNabb, I am sorry I didn't bother you today. But I 
think I have done more than an adequate job of bothering you 
over the past couple years. And thank you for what you do to 
keep the troops supplied.
    Thank you, Madam Chairman.
    Mrs. Davis. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Madam Chairman.
    First of all, General Petraeus, there has been certainly 
media reports and I think a relatively recent GAO [Government 
Accountability Office] report concerning problems in terms of 
financial management of--I think you mentioned the CERP money. 
I am not sure if that--there are categories above that, but--
and just dealing with cash in Iraq.
    And I wonder if you could respond to that in terms of--and 
be a little bit more specific as to what actions have occurred 
to tighten up that process.
    And also, I wonder if you could also talk about should the 
United States--at what level should we be engaged at this time 
in terms of redevelopment in Iraq? Should the taxpayers be 
engaged? It seems like we are also still engaged in some 
infrastructure development in Iraq.
    General Petraeus. Well, we are finishing up the 
infrastructure development that was funded by the original Iraq 
Reconstruction Act, and we continue to do small projects.
    I think the average project that we do now in Iraq is 
somewhere in the tens of thousands of dollars range with CERP, 
just to give you an example how that has come down very 
steadily over the years. And as you know, we turned back a 
substantial amount of money from CERP last year, and we will 
likely do that again this year. And that is okay, because again 
that is an O&M [Operations and Maintenance] funding that the 
services can very much use.
    And so we are not going to have an end-of-year spending 
drill or anything else like that. We are going to spend the 
taxpayer's dollars responsibly.
    Now, with respect to should we continue, I think we should 
continue with some levels of funding in Iraq because I think we 
have continued substantial interests there, and we have 
invested an extraordinary amount to get to this point. And I 
think that continuing some level, but again at quite a 
substantially reduced level, is actually important to continue 
to help with the Iraqi security force development, as an 
example, which is key, of course, to us being able to go home 
and hand off the task to them. We have done that successfully 
so far. We need to continue to do that.
    With respect to really just if you say a general category 
of management and so forth, there is no question but that our 
forces and contracting elements and other agencies have learned 
an extraordinary amount about this. Some of it the hard way, 
and some of that, indeed, is of course what was reported in the 
press the other day. But we have tried to be a learning 
organization.
    Years ago, we instituted the Joint Contracting Command-
Iraq/Afghanistan [JCC-I/A], and over time have done a 
substantial amount to provide better oversight, literally just 
more contractors, and again even now initiatives such as trying 
to literally reduce the amount of cash on the battlefield--try 
to go cashless, try to do electronic funds transfers and so 
forth where you can. And again, that has some challenges in 
places like Afghanistan, as you would appreciate.
    To give you one item, if I could, the Army had no flag 
officers in the contracting ranks at all, I think it was two or 
three years ago--in fact, when we were trying to get a flag 
officer for the Joint Contracting Command-Iraq/Afghanistan, 
even though it had the predominance of the force. And as a 
result of its examination of how the contracting force had 
really eroded--atrophied in many respects--at a time when 
contracts were going like this, it has taken a number of 
different steps to get it going like that again. In fact, I 
think there are now three flag officers that are growing, and 
this will provide much better, again, leadership, management 
oversight and so forth.
    Mr. Coffman. Okay. If you could respond to the committee in 
writing, I would really appreciate it, and address the issue of 
what--the nature of the projects that we are funding.
    General Petraeus. I would be happy to do that.
    Mr. Coffman. Because I do have a concern that the taxpayers 
of the United States should not be funding infrastructure 
development in Iraq today.
    General Petraeus. Right.
    Mr. Coffman. Having served in Iraq myself, I am well 
familiar with CERP projects and the need at the small unit 
level----
    General Petraeus. Right.
    Mr. Coffman [continuing]. Battalion and below to be engaged 
in those projects with the local population.
    General Petraeus. Right.
    Mr. Coffman. I have a final question for both of you, and 
that is, I have a concern that we have been--it seems that 
post-Vietnam, we went in with a light footprint, Angola, in 
Afghanistan initially, in supporting indigenous factions that 
shared our security concerns. And now with Iraq and 
Afghanistan, we are in a very heavy footprint. And I would hope 
going forward that we revert back to a light--a lighter 
footprint, relying on Special Operations Command for those 
issues where we are confronting non-state actors. If maybe you 
could respond to that.
    General Petraeus. I would be happy to respond to it because 
I think a light footprint is a great solution where all you 
need is a light footprint. But the truth is that we tried a 
light footprint in Iraq and Afghanistan and, with respect, it 
didn't work. It was wrong.
    We have been able to do a lighter footprint in some cases. 
I think the Philippines are a great example of that, touch 
wood, Yemen. There are some other areas where we have small 
numbers of forces, where we can almost do in a sense preventive 
counterinsurgency, if you will, rather than ending up in a 
full-blown counterinsurgency, with a whole-of-government's 
approach from the get-go.
    And again, I think arguably in Kosovo that may have been, 
although you can interpret that different ways, but so again, I 
think this is a case of it is art not science, and I think you 
have to be careful. The penalty for going too light can be 
substantial. The penalty for going too heavy can be 
substantial. And that is why they pay folks to make tough 
decisions.
    Mrs. Davis. Thank you.
    I am sorry. Admiral Olson, did you want to respond?
    Admiral Olson. Thank you, ma'am.
    Mrs. Davis. Time is up, but I am going to go ahead and let 
you----
    Mr. Coffman. Madam Chairman, I show that I have a minute 
and five seconds left. Oh, I am going the other way.
    [Laughter.]
    Admiral Olson. I would simply say that the small footprint 
and the way that Special Operations forces do this around the 
world in support of the regional combatant commanders. General 
Petraeus called it ``preventive counterinsurgency.'' We refer 
to it as moving ahead of the sound of guns in order to prevent 
that sound from occurring later.
    But once the sound of guns has occurred, it is a whole 
different thing and you need to respond with what you need to 
respond with, and the operational commanders need to make that 
determination, as General Petraeus laid it out. But the small 
footprint is better before the fight starts.
    Mrs. Davis. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chair.
    And thank you again, gentlemen, for being before our 
committee.
    Admiral Olson, I want to pick upon something that Mr. 
Skelton spoke about in his opening statement, and that is the 
whole issue of 86 percent of our special operations forces are 
in U.S. Central Command. It is the same percentage that you 
gave us last year, so I would like to know, can you provide a 
specific breakdown of where of the special operations forces 
between Iraq, Afghanistan, and Pakistan? So that would be my 
first question.
    Admiral Olson. Congresswoman Sanchez, thank you. I would 
like to take that for the record for the sake of accuracy so 
that I do give you good numbers.
    [The information referred to can be found in the Appendix 
on page 157.]
    Ms. Sanchez. Okay.
    Admiral Olson. But I will tell you, it is roughly 10,000 
people in the CENTCOM area of operations, and it is roughly 60-
40 or 55-45 split, with now the slightly heavier portion in 
Afghanistan versus Iraq.
    Ms. Sanchez. Thank you.
    And with the high percentage of SOFs in the U.S. Central 
Command, how is that affecting our operations elsewhere 
throughout the world? I mean, if you are drawing and you are 
pulling them all in one direction, what is that doing to the 
rest of the things that we are worried about out there?
    Admiral Olson. Yes, ma'am. Clearly, we are in fewer places 
with a smaller number of forces for shorter periods of time 
than we historically have, and that has impacted on our ability 
to establish some of the close relationships with counterparts 
in other regions. Along the way, our ability to speak some 
languages has atrophied because we are simply not there with 
the same intensity that either they want us there or we have 
been able to be there in the past.
    Ms. Sanchez. And do you see the drawdown of the 
conventional forces coming out of Iraq over this year--do you 
see that as also a drawdown of our special forces who are 
sitting in Iraq? Or do you see that even a greater extent of 
leaving the more leaner, faster-moving Arab-speaking type of 
people that you might have? Or do you see us pulling them out 
of Iraq and then sending them off to Afghanistan?
    Admiral Olson. Well, we are terming it a reemphasis in 
Afghanistan without a de-emphasis in Iraq, expecting our 
Special Operations force level in Iraq to remain about constant 
even as the general purpose force drawdown occurs.
    Ms. Sanchez. Thank you.
    I would also like to discuss yesterday's New York Times 
article. In particular, General Petraeus, realizing that there 
are still ongoing investigations with respect to the Department 
and that some things are difficult to talk about, can you 
comment on the validity of yesterday's New York Times article?
    General Petraeus. Which article are you referring to?
    Ms. Sanchez. The one on the special forces and how they are 
coming under McChrystal's operational perspective because of 
problems with the higher casualty rate of civilians.
    General Petraeus. Absolutely. Yes. It is not because of 
that, and I am the one who directed the shift of operational 
control as well as what was tactical control to Com-U.S. Forces 
Afghanistan, as we also have done recently for U.S. Air Force 
provincial reconstruction teams [PRTs] and for U.S. Marine 
forces and for some other elements there as well--the Army 
forces having already been under his operational control as 
well as his tactical control.
    Ms. Sanchez. So the article sort of insinuates that the 
reason that they are coming under McChrystal is because there 
have been high civilian casualties, and in particular they are 
from the special force--the special operating teams. Are you 
trying to tell me that because you ordered this, you really 
didn't order it on that basis? You ordered it more on the 
ability to have the skill-set needed in particular areas in 
Afghanistan?
    General Petraeus. No, neither of those, Congresswoman. What 
I am--the reason it was done was to help General McChrystal 
achieve greater unity of effort among all of his forces. And 
again, that is why this applied to more than just Special 
Operations forces. It also included Marine forces, certain Air 
Force forces, and it already had included--we had earlier done 
the Army forces.
    Ms. Sanchez. Great. If it is possible for the record or if 
it has to be more under more of a confidential situation, I 
would like to see a memo or whatever----
    General Petraeus. It has nothing to do with classification.
    Ms. Sanchez [continuing]. Under some of that movement and 
why it is happening.
    General Petraeus. There is nothing classified about it. 
This is to achieve greater unity of effort. That is why I 
directed it. It is something that we discussed for a number of 
months way before this whatever incident, again, was referred 
to in that article. We have talked about it for years, 
candidly. It is something we discussed when I was in Iraq as 
well, and it is something that I also then took to the 
secretary before doing it.
    Ms. Sanchez. And lastly, Admiral, I had asked you several 
weeks ago when we met what do you see in the future as some of 
the greatest threats and where we need to be placing our 
special ops. Can you tell me if there is anything that is 
changed or anything that we should worry as a committee with 
respect to where our forces might be?
    Admiral Olson. From the Special Operations perspective and 
our responsibility to track violent extremist threat across the 
regional combatant commands of the world, our focus is on the 
under-governed, ungoverned regions of the world. It is the 
places where there are vast expanses, easy access, the ability 
to develop and project power from those regions.
    Admiral Olson. So that does include Yemen, as we see growth 
in an Al Qaeda presence there. It gives us concerns about 
Somalia and further west, particularly in the pan-Sahel trans-
Saharan regions.
    Ms. Sanchez. Thank you.
    Mrs. Davis. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Madam Chair.
    And, gentlemen, thank you. I always have a little 
commercial in the beginning that I know one doesn't reach the 
rank of admiral or four-star general without having a complete 
and total lifetime dedication to the cause of freedom. And I 
want you to know I just speak on behalf of a great deal of 
people suggesting how much we are honor and appreciate your 
grand service.
    I would like, indulge me here, I would like to try to sort 
of express a concern and then I will change gears here at the 
end and ask a question, I promise.
    One of the great concerns I have, as has been in the 
committee, is that Iran would achieve a nuclear weapons 
capability. Certainly agree with General Petraeus that that 
means that there would be an arms race in the Middle East and 
just a number of other things that I believe could wipe the 
table clean of other issues, given the potentiality of weapons 
falling into the hands of terrorists at some point in the 
future and all of the things that go with that.
    And it is my concern that this Administration--not 
expressing anything on your part--but this Administration may 
have come to an unstated conclusion or position that Iran is 
going to gain nuclear capability and that our strategy should 
be to contain that when that happens. And I just feel like that 
is a fundamentally wrong conclusion to come to, that it means 
that we should do everything we possibly can to prevent Iran 
from gaining that capability, again, for some of the stated 
reasons that I mentioned.
    And, General Petraeus, in the Senate Armed Services 
Committee, I think you made a general statement that you didn't 
think Iran would become a nuclear power or nuclear-armed nation 
in 2010. It so happens that I agree with you, and I just want 
to make sure that that doesn't represent a perspective on your 
part that we should be letting up in any way, and I don't think 
it does--give you certainly the opportunity to----
    General Petraeus. Not at all. And, in fact--I mean, for 
anybody wants to get into the issue of Iran's path, if you 
will, its efforts in the nuclear arena, then I think very much 
you should ask for a closed session with the intelligence 
community to lay that out. But, I mean, that was just really 
to----
    Mr. Franks. Sure.
    General Petraeus [continuing]. Just say that.
    Now, I am not aware of such a conclusion as you talked 
about, by the way, to just--to allow----
    Mr. Franks. No, I don't suggest you are. That is a 
conclusion on my part, that there is an unstated feeling on the 
part of this Administration that Iran will gain a nuclear 
capability, and I think that is a very dangerous conclusion to 
come to. And I wanted to make sure that I said ahead of time 
that I don't think that that reflects any perspective on any of 
your part, because perhaps you know better than anyone the 
implication of a nuclear Iran.
    General Petraeus. And, again, I am not aware of a 
conclusion being made in the policy level either.
    Mr. Franks. I understand. Yes, sir.
    Well, again, I hope that to be true, because I feel like 
that there are calculations that are made in the world at this 
point that are beginning to take into consideration the 
potential, you know, hegemony that Iran would gain if they--if 
they were able to become a nuclear-armed nation.
    So with that, I just wanted to express that concern. And I 
want to give anyone else a chance to do it, too.
    Before I run out of time, I would like to go ahead and put 
one other question on the table and then you can deal with them 
en masse if you want to.
    You have had a brilliant success in Marjah, and I think now 
that the plan--the general plan is to move forward in Kandahar 
with an even larger effort in Afghanistan, as I understand, and 
that there are at least some stated concerns that you may not 
have quite the number of forces that you believe is necessary 
to maintain peace in Marjah, that, you know, that to hold that 
territory is more--sometimes more personnel intensive than to 
take it. And I am concerned that, you know, our potential 
friends in the area might wonder if we are going to have the 
commitment to hold not only Marjah, but other areas that we 
secure. And do you have any concerns that you feel like this 
committee should be aware of?
    General Petraeus. I do not.
    One of the concepts when I talked about getting the right 
structures, people, concepts, and resources, one of the key 
concepts there is in counterinsurgency guidance, and it has to 
do with not clearing if you are not going to hold. We have 
tried that in the past. You know what the results are. 
Occasionally there is some reason to disrupt somebody, but you 
need to recognize all you are doing is disrupting and leaving.
    In this case, there was a commitment to clear and to hold, 
and that commitment remains strong. And, I mean, this is why we 
are deploying still. We are about 10,000 of 30,000 in, and we 
have another 20,000 forces headed on the way in.
    Mr. Franks. Thank you.
    Thank you, gentlemen.
    The Chairman. [Presiding.] Thank the gentleman.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you.
    And thank you, all of you, for being here, and especially 
for the leadership you have provided the country.
    I wanted to follow up a little bit, well, with my 
colleague, and just the size of the request really that you 
have made in trying to move forward and provide a greater 
increase for the Afghan security forces.
    I wonder if you could explain a little bit more--and 
perhaps you did this earlier, and I am sorry, I might not have 
been here--why you need the almost 50 percent increase in the 
levels appropriated for fiscal year 2010 and the $11.6 billion 
for fiscal year 2011.
    Is there a point at which--I think people are ask--I know, 
whether this is really a possibility, whether they have the 
ability, capacity to gear up in that way?
    General Petraeus. Well, again, a critical important--
critically important part of our overall effort involves 
developing host nation forces so that indeed we can, as the 
president has articulated, starting in July 2011, begin the 
process of transitioning some tasks, conditions-based, to 
Afghan security forces.
    And a very substantial amount of analysis went into how 
many forces and so forth. The agreement at this point is for 
the expansion up of another roughly hundred thousand that will 
take them to about 305.6 thousand total soldiers, police, 
border police, and some other categories.
    We think it is crucially important when you do the 
counterinsurgency math, if you will, everything we know about 
this tells us that those forces will be needed and that we need 
them to be as capable as we can possibly help them be. And that 
is the reason for that.
    As I did mention earlier, when we can hand off tasks to 
them, it is obviously a lot cheaper to have a very substantial 
number of Afghan forces rather than to have even a smaller 
number of our forces. And, you know, you know the numbers that 
it took to deploy 30,000 additional forces----
    Mrs. Davis. I think, General, what I am wondering, and I 
know I have been asked this quite a bit out in my district, is 
whether or not there is really a threshold and a point at which 
we feel that we are not actually being successful in the time 
frame that we actually field in order to see the changes that 
are required.
    General Petraeus. Well, that is certainly not something 
that we see right now. Again, we do forthright, honest 
assessments. And what we saw in Marjah, for example, was a 
performance by Afghan forces that was, frankly, mixed. There 
were some quite good Afghan forces. There were some of our 
commanders who sing the praises of their Afghan counterparts. 
And then there were some others that were not as good. And 
there is no one singing those praises.
    The same is true of various forms of local and national 
Afghan governance. This is why President Karzai, of course, 
announced his anti-corruption initiative, why he just relieved 
another governor and so forth.
    So, again, this is hard----
    Mrs. Davis. Yes. This is tough. I understand. And I know 
that there was a report----
    General Petraeus. And you went through it with us in Iraq 
as well, as I know you recall.
    Mrs. Davis. There was a report as well recently that the 
police training isn't going as we would like, and it seems 
like----
    General Petraeus. We are overhauling it.
    Mrs. Davis [continuing]. Every time----
    General Petraeus. We are overhauling the police training. 
We didn't have the concepts right----
    Mrs. Davis [continuing]. I have been there and asked----
    General Petraeus. No, we didn't have the concepts right.
    Mrs. Davis. Still working on that. Okay.
    General Petraeus. Again, that is--we have taken a year to 
get the right inputs, and among those is the concept for how we 
train the Afghan national security forces, the organization 
needed to do it. You know, we had--in Iraq we had a three-star, 
as you will recall.
    Mrs. Davis. Yes.
    General Petraeus. In Afghanistan we had a two-star. It 
helps to have that additional structure, the additional----
    Mrs. Davis. If I may turn, just quickly, to the recent 
Washington Post article on the fact that while some situations 
have improved for women in Afghanistan, there is a lot of 
concern about women being certainly on the--continuing to be on 
the margin. And the discussions with the Taliban have a great 
impact on the feeling that they would like very much to be able 
to be at the table, you know, in the sense of having more 
input.
    Do you anticipate, do you see that as a possibility? What 
role, if any, do you think we should be playing?
    General Petraeus. Well, I see Afghan women certainly as 
playing a role, albeit one that does vary depending on where 
you are in the country. And you have been there, you know that 
in the cities, there are certain cities where women are very 
evident, very obvious, and very much contributed and involved 
in all that goes on in society. But when you get into some of 
the more rural areas, where there is a more conservative form 
of religion that is practiced, that is not the norm.
    And so, again, this is also certainly a mix. I have 
actually talked about this with President Karzai. He is 
actually quite proud of some of the accomplishments in this 
regard. And as I mentioned to you before the session, the 
Women's Day celebrations recently were really quite remarkable. 
I mean, you are absolutely correct that there is an enormous 
desire there in that half of the population that is female to 
contribute more to their country.
    Mrs. Davis. Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Wittman, please.
    Mr. Wittman. Thank you, Mr. Chairman.
    General Petraeus, Admiral Olson, General McNabb, thank you 
for joining us today and thank you so much for your service to 
our Nation.
    Wanted to begin with you, General Petraeus. We have read 
recently, as the election results come in from Iraq, about what 
is happening with the dynamic of those folks that are elected 
to serve, and it appears as though supporters of Muqtada al-
Sadr are gaining some momentum, at least as those----
    General Petraeus. I am not sure I would share that 
actually. As I mentioned a second ago, the two primary 
coalitions actually do not include the Sadrists. They are the 
Maliki coalition, 24 percent of the vote, the former Prime 
Minister Allawi coalition. That is a very secular coalition. 
This is a--more secular than the coalition that is--that has 
the Sadrists as part of it.
    They have only got, I think, it is somewhere, last count, 
around 17 percent of the votes, so they are decidedly behind 
and also behind the Kurdish coalition.
    And they are one of only--they are only one of several 
parties in that particular coalition which has the Supreme 
Council of Hakim and then also the former Prime Minister 
Jaafari element, Chalabi, and some others.
    They may be more prominent in that coalition. That may be 
correct. And that is the more--the least secular and perhaps 
arguably most connected to Iran coalition. But I wouldn't say 
that they are more prominent in Iraq as a whole, other than the 
discipline they showed as part of a party as part of that 
coalition.
    Mr. Wittman. Well, in that context, what role, then, do you 
think, or what influence do you think, then, Muqtada al-Sadr 
has going forward, as the results of these elections come in, 
with the government that will be formed?
    Do you think his role will be as it was, maybe, in the 
past?
    It seems like he has been, you know, sort of, under the 
radar here, at least recently. And I didn't know if this 
election signaled a little bit different path?
    General Petraeus. He has emerged. He has been more 
prominent. His party, his coalition did not do well in the 
January 2009. Again, that was that same coalition, and was 
largely defeated by Maliki's coalition in the January 2009 
provincial elections.
    Again, his is a loyal, in a sense disciplined element. 
There are still some militia remnants that are attached to it 
by other names. And he has a very prominent name, obviously. 
The Sadr name carries an enormous amount of weight in Iraq, in 
society and even in Iraqi politics.
    So he is an important figure and he has been a bit more 
visible after the years of study and so forth that he has 
undertaken. And, really, it is going to--we will have to see 
whether or not his party breaks from this coalition and ends up 
going with one of the other two leading coalitions which likely 
will be the lead dog in this effort to form a coalition that 
can elect--get enough votes in the Council of Representatives 
to elect a prime minister and president and so forth.
    Mr. Wittman. Okay, very good.
    I want to shift gears, a little bit now, to Afghanistan and 
talk, a little bit, about where we are going to be in the 
future. Obviously, we know we have got a timeline for 
withdrawal. And of course that is based on looking at where we 
are in the efforts there in Afghanistan.
    Let me ask this. You know, one of the elements of that, we 
know, in this counterinsurgency plan is making sure that the 
training of the Afghan national security forces is on track and 
that we are actually accomplishing the things that we need to, 
to make sure that they can maintain security, just as you said, 
once we go in and are able to establish that security.
    Can you tell me, a little bit, about how that training 
program is evolving?
    And are we really on the correct glide path to achieve an 
effective size for the national security force by 2012, which 
is, you know, on track with the time frame for withdrawal?
    General Petraeus. I think it is probably too early to tell. 
There has been greater recruiting and retention in the army and 
now in the police as well. But that is really only the last 
couple of months, and that was the result of probably two 
factors.
    One is a pay raise and some targeted bonuses and some other 
sensible actions, which--all of which, by the way, we tend to 
do as well.
    And then the other is really a greater sense of ownership, 
we think, by Afghan leaders, in part because they recognize 
that there is a timeline. There is a date for the beginning 
of---not for the withdrawal but for the beginning of--a 
transition, for the beginning of a responsible withdrawal.
    With respect to the overall programs, we have to increase 
the capacity for training substantially. NATO asked for the 
numbers of trainers that General McChrystal and General 
Caldwell and the NATO training mission in Afghanistan commander 
requested and got only half of those. So we are going to have 
to figure out where those other trainers are going to come 
from.
    And also, General Caldwell has made some very sound 
changes, frankly very much in line with the kinds of learning 
that we did in Iraq over time, as well.
    Just one example: you know, we should recruit, train, and 
then assign police, not recruit, assign, and then try to get 
them back to training. Again, that was a flawed approach, and 
we have got to--we have to take the time to do that. And there 
are also a host of other initiatives to increase the capacity 
and capability of the training and equipping effort and 
therefore translate into greater capacity and capability for 
the Afghan security.
    The Chairman. I thank the gentleman.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And, first, let me say hi to Colonel Seaton, back here. He 
was my----
    General Petraeus. He is quite a----
    Mr. Hunter [continuing]. Battalion C.O. [commanding 
officer], 1st Battalion, 11th Marines.
    General Petraeus [continuing]. Years ago.
    Mr. Hunter. So great to see you here. And good luck with 
them. Good luck with them. It is a long, hard slog.
    [Laughter.]
    And, you know, to all of you, thanks for your service.
    General McNabb, as Dr. Carter was actually singing your big 
praises yesterday, talking about the way that we are 
increasing, getting the MRAPs over and a lot of the things we 
have done to make different lanes, kind of, come together to 
get stuff over there quicker, things that are needed really--
that are very important right now.
    So thanks for everything that you are doing.
    The first thing that I would like to talk about is, one, 
just echoing Mr. Taylor's asking about the ROE because I 
understand what the tactical directive. And I understand, at 
the level that we are at and that you all are at as four-stars, 
what you say and what you implement at your level and what gets 
executed by a captain or approved by a lieutenant colonel or 
major are two totally different things.
    And talking to Navy SEALs, talking to different task forces 
in the Army who fall under both of you gentlemen sitting there, 
different task forces that I can't even talk about here, 
mention by name, they feel like there is a disconnect between 
what was supposed to happen with that tactical directive and 
what they are actually allowed to do, when it comes to night 
raids; when it comes to them getting air support; when it comes 
to--when I was in Afghanistan in 2007, if you got in--troops in 
contact, you owned all the air no matter what. It didn't matter 
if you were advancing or you were retreating; you owned all the 
air.
    It isn't like that anymore. I mean, that--that is a fact, 
that that has changed. And it might not be written that way, 
but no----
    General Petraeus. If troops in contact is declared, 
Congressman, they own the air.
    Mr. Hunter. No, but--right, I understand that they own it, 
but let me----
    General Petraeus. It is very clear. Once a troop is in 
contact is declared, they own the air.
    Mr. Hunter. Right, but let me tell you. A company commander 
is not going to lose his job over dropping bombs and 
accidentally--accidentally killing civilians, and he is scared 
to drop those bombs.
    That is what is happening right now. That is that 
disconnect between an O-3 level and a four-star general level, 
is that he is going to lose his job as a company commander if 
he drops those bombs.
    I think that is the disconnect going on right now. He is 
allowed to have the air; he is told he has the air. Those 
troops have that support, but he knows, if he kills civilians, 
he is going to be immediately under investigation. And I think 
that is a disconnect. I am not even asking you about----
    General Petraeus. We have always investigated killings of 
civilians, Congressman, in Iraq and Afghanistan. Any time you 
have anything like that happen, that is----
    But we will underwrite--we will underwrite the actions of 
our tactical level commanders when they are in circumstances 
where they are decisively engaged and they must employ close 
air support or any form of indirect fire or attack helicopters 
or what have you.
    Now, we have got to reinforce our efforts to make sure that 
everyone understands the intent of the tactical directive. And 
I will agree with you that--on that very much. One reason we 
have given OPCON [operational control] of all these different 
forces to General McChrystal is to ensure that there is 
absolute clarity on who it is that is in charge and who is 
indeed giving these orders.
    So I agree with you in that sense. I think it is crucially 
important that, again, the intent of the tactical directive be 
understood, which, as I mentioned up front, there is never 
anyone who is denied the right of self-defense. And if they are 
in trouble, we are going to provide the forces to ensure they 
get out of trouble.
    But there do have to be considerations where you are not in 
desperate trouble to make sure that, again, innocent civilians 
aren't killed in the course of action--and I know you 
understand that, having served down-rank in that kind of 
situation.
    Mr. Hunter. I understand. I have one last question, a 
totally different thing. But just please be aware that there is 
a disconnect----
    General Petraeus. I am, got it.
    Mr. Hunter [continuing]. As a lieutenant compared to a 
four-star----
    General Petraeus. Absolutely.
    Mr. Hunter [continuing]. There is disconnect in the way 
that things are implemented, right?
    The second one is, I was able to talk to General Paxton 
yesterday, Jay Paxton, and Dr. Carter. And I asked them this. 
Do we own any roads in Afghanistan?
    When Operation ODIN [Observe, Detect, Identify, Neutralize] 
started in Iraq, about six months after that, when it came to 
IEDs going off, we could say that we owned some road. We could 
say, hey, we own 50 kilometers here. We know the enemy are not 
going to put in IEDs on these 50 roads because we are watching 
it persistently with a revisit rate of 2 hours, and we know 
that it takes longer than that to plant an IED; we own these 
roads.
    There was no answer for that about Afghanistan. We don't 
know if we own any roads. So I am asking you, can we say that 
we own IED-free 20 kilometers in Afghanistan? Thirty 
kilometers?
    General Petraeus. Well, I am sure there are stretches 
that--where we have that--you know, I was the commander in 
Iraq, of course.
    Mr. Hunter. Right.
    General Petraeus. And I am not sure I would have said that 
we owned roads, per se, in the same fashion that you said that. 
Again, I spent four years there. And I think I would be careful 
how we characterized how we felt ownership of various roads.
    And if you did not have an unblinking eye on a road, not a 
revisit rate of two hours, these guys could--they dropped it 
out of a vehicle, as you recall.
    Mr. Hunter. They also----
    General Petraeus. So again----
    Mr. Hunter. They also dug them in with back hoes over a 
period of six hours, right?
    General Petraeus. That is different. That is a deep bury. 
But, again, you could drop an IED, and these guys were very 
good at that.
    So, again, I would just be very careful how we characterize 
that.
    I am sorry, Mr. Chairman.
    Mr. Hunter. Thank you, gentlemen. Thank you----
    General Petraeus. Thank you.
    The Chairman. Thank you. Let me ask, before I go to the 
next member, General McNabb, what percentage of the materiel is 
flown into either Iraq or Afghanistan by air?
    General McNabb. Mr. Chairman, we take in about 20 percent 
of the materiel by air into Afghanistan because it is 
landlocked. And we take all sensitive equipment, and anything 
that is high-value, we take in by air.
    M-ATVs is a good example. We take that in by air because we 
have got to get it there to the troops as quickly as possible 
because lives are at risk.
    The Chairman. The other 80 percent is under the maritime 
security program, by ship?
    General McNabb. Sir, it either comes in from the northern 
distribution network, which, as you mentioned, is by surface, 
by ship and then by train and rail and then by trucks, or it 
comes in by ships into Karachi and then comes up the Pakistan 
LOC [Line of Communication].
    So about 50 percent up the Pak LOC, about 30 percent---25 
percent to 30 percent--coming from the northern distribution 
network. And right now, we are in the middle of trying to get 
more to go up to the northern distribution network, the 
commercial-type stuff that we can take through there to free up 
room on the Pak LOC to bring up the military equipment for the 
surge.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your long, distinguished 
service to our country. We appreciate that.
    Mr. Conaway. Iran has appeared to have--not just their 
nuclear weapons, but they appear to be adding to their arsenals 
and capabilities across a pretty broad spectrum.
    Do you see that as a prelude to some sort of an offensive 
move that they might decide is in their best interest, assuming 
we make the sanctions tough enough where life in Iran gets 
really bad and the regime wants to try to use an offensive of 
some sort in order to distract its people? Are you concerned 
about that at all?
    Well, I know you are concerned about it, but how concerned?
    General Petraeus. Well, there is a number of things that we 
are concerned about with respect to Iran and a number of other 
countries in the region, as you know, Congressman.
    But I--what I would--I don't think I would characterize it 
quite as broadly as say that they are getting a ``offensive 
capability,'' in the sense that we would think of, of a 
conventional, say ground or air offensive.
    The truth is their air forces are really not that good at 
all, in part because of sanctions. In fact, there are some very 
small countries in the Arabian Peninsula that have better air 
forces than does Iran, but their missile forces have been built 
up quite substantially. Their air defense forces have been 
built up.
    There are a variety of asymmetric types of threats that 
they present, everything from suicide boats to the use of proxy 
elements.
    So, in fact, I think, as a broad characterization, what 
they have been building is more of an asymmetric capability, 
rather than a conventional offensive capability, as we know it.
    Mr. Conaway. I guess I was thinking about the cruise 
missile-like thing that they just----
    General Petraeus. Yes. Again, that would be part of that 
category of missile threats that they have built up 
substantially and also have transferred some of that, of 
course, to Lebanese Hezbollah and to others in the region.
    Mr. Conaway. Yes. Your testimony, General Petraeus, page 
12, you talk about cross-cutting challenges to security and 
stability, list about 11 different deals. Are those in rank 
order of your concern? And, if not, what would be the--say the 
top three concerns that you have got in terms of this cross-
cutting----
    General Petraeus. In fact, let me just ask someone if----
    Mr. Conaway. Well, the first one is ``insufficient progress 
toward a comprehensive Middle East peace,'' is the first.
    General Petraeus. Yes. Again, I don't know that I would 
rank order these as such----
    Mr. Conaway. Okay.
    General Petraeus. But that is certainly something that 
forms the strategic context in which we operate. Again, there 
is just a bunch of dynamics out there that we thought it would 
be useful for the members to know, that, again, shape this 
context within which we operate.
    Mr. Conaway. Just for the record, would you--and for me to 
back and rank order those, as to where you think the----
    General Petraeus. I would be happy to do it.
    [The information referred to can be found in the Appendix 
on page 157.]
    Mr. Conaway [continuing]. Kind of all into the----
    General Petraeus. Sure.
    Mr. Conaway [continuing]. Scheme?
    A report out of Afghanistan, I think in January, by a 
General Flynn, talked about a distinction between a distinction 
between intelligence being used to target, which was very 
extensive and is working really well, fortunately, versus a 
broader intelligence array of information provided to our folks 
on the ground that would allow them to win the hearts and 
minds, for lack of a better phrase.
    He cited a couple of good examples in there how it has 
worked--a couple of Marine units, I think, that have shown 
successes---dramatic drops in IEDs being planted, about real---
almost as if the Afghanis have taken on the--in their areas of 
operation--the role of protecting themselves.
    Visit with us a little bit about how that might be extended 
across a broader area. Are you getting the intelligence that 
you need?
    General Petraeus. Well, if I could, again, put this in 
context. When we conducted the strategic assessment part of 
taking command of Central Command, we did this, and got that 
back in a couple months.
    And one of the revelations that came back--we had an awful 
lot of folks that had served a fair amount of time in Iraq, a 
number in the intelligence community. And they came back and 
said, ``Boss, there is not anywhere near the same capability 
nor the same capacity nor depth of understanding that was 
developed in Iraq with respect to Afghanistan.''
    And so, at local levels, and that is really what General 
Flynn is getting at. This is about the human terrain, 
understanding in a really granular fashion the dynamics of a 
particular village, valley, tribal area, and so forth.
    And so, he is exactly right, and our assessment came back 
and said, ``We have got to do a lot to help build this up.'' 
And that--by the way, one of the initiatives was to send Major 
General Flynn to Afghanistan to tackle some of this as the 
leader of the intelligence community there.
    It was also forming the Af-Pak [Afghanistan-Pakistan] 
Center of Excellence at U.S. Central Command's Joint 
Intelligence Center. It is the Af-Pak Hands program that SOCOM-
CENTCOM joint staff and those downrange participate in. And it 
is literally just beefing up, substantially, all of the 
different intelligence elements at the different levels.
    And then, of course, just the sheer density of forces 
results. As he noted, there was a point about platoon leaders 
and others. That, in itself, gives you more knowledge, if you 
capture it, and part of the challenge is to capture this so we 
are not just refighting this year after year, as we rotate 
units and leaders.
    Mr. Conaway. Thank you, General. Appreciate your being 
here.
    The Chairman. Thank the gentleman from Texas.
    Before I ask Mr. Wilson, General McNabb, let me ask you a 
very basic question. Would you discuss and tell us the route of 
the northern distribution network and also the route of any 
seagoing supplies to either Iraq or Afghanistan, please?
    General McNabb. Yes, sir. It is a network, and so there are 
a number of routes. Up in the north, it goes through Riga in 
Latvia. And it will come down through Russia to join up through 
Kazakhstan into Uzbekistan.
    We also have a Caucasus route that goes through the Black 
Sea and goes through the port of Poti to Baku and then up to 
Aktau and, again, through Kazakhstan and Uzbekistan, joining 
that rail line to join up there.
    Most recently, at General Petraeus' request, we actually 
have a linkup from Turkey up to that same line, going through 
the Caucasus, coming across. And, in fact, one of our carriers 
is--has volunteered that they would come in to one of the ports 
in Turkey and bring it up through Turkey, so that is another 
addition to the network.
    And, most recently, we have got interest in coming in from 
Vladivostok, across Siberia, again coming down through 
Kazakhstan and Uzbekistan.
    To the Pak bloc, the Pakistan, it all comes through 
Karachi. Our carriers have done a superb job of, again, mixing 
and matching and making sure that they have lots of options, 
again, to support General Petraeus.
    The good part there is there is competition between all of 
these routes, and actually it has brought prices down because 
it is a network. Because we don't want to depend on one, we 
basically have said it is a network. And what we have found is 
all those countries have said that it is in their interest to 
have peace and stability in Afghanistan, and they have been 
very helpful across the board.
    The Chairman. Thank you, General.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Generals, Admiral, thank you for being here today. I 
particularly appreciate your service. I am the proud father of 
two sons who have served in Iraq--one Army, one Navy--and I 
just know of your leadership, and I am very, very grateful.
    Additionally, I am very grateful my former National Guard 
unit, the 218th, a mechanized infantry brigade of the South 
Carolina National Guard, led by Major General Bob Livingston, 
served for a year in Afghanistan. And all of you were so 
helpful. And the people of South Carolina are so proud of their 
success in working with the people of Afghanistan.
    And, General McNabb, I have to point out that we are a 
joint service family. My nephew has just completed his service 
in the Air Force in Iraq. And so, thank all of you.
    Additionally, I want to thank you for coordinating our 
allies. I had breakfast this morning with the Defense Minister, 
Jaroslav Baska, of Slovakia. And the people of Slovakia are so 
proud of their service in Iraq and Afghanistan. And the Defense 
Minister was pointing out that they are adding to their 
commitment to ISAF.
    And we appreciate countries, the new members of NATO, such 
as Slovakia, Bulgaria, Romania.
    As we are into the hearing today, something that I find 
interesting, the new media really has made it possible for the 
American people to know so much more about what is going on.
    And, General Petraeus, a question was submitted via the 
HASC [House Armed Services Committee] Republican Facebook, from 
Jaysen--J-a-y-s-e-n of Los Angeles. And the question is, is the 
civilian surge in Afghanistan having the desired effect? And 
what additional civilian agency originations--USAID [United 
States Agency for International Development], State, 
Agriculture, Justice--are needed?
    General Petraeus. Well, Congressman, Jaysen's asked a great 
question. The civilian surge, if you will, to parallel the 
military surge is certainly ongoing. I think it is--it has 
almost tripled the number of civilians that were there, again 
if you go back, say, to the end of 2008.
    Each of the components that he has mentioned and a few 
others--State, AID, Agriculture, I would add DOJ [Department of 
Justice], FBI [Federal Bureau of Investigation], virtually all 
of the different elements engaged in the executive branch play 
a part in this.
    And for what it is worth, I know that Secretary Gates and 
Chairman Mullen and I have been among the biggest champions for 
actually beefing up those components of our executive branch 
because, of course, if they can't do it, then in many cases 
individuals in uniform end up doing it.
    And that has been the case, as you know, because of 
reductions in AID and so forth. An area, by the way, in which 
we need to expand as well is this whole information operations 
area of public diplomacy, as State puts it. And that is 
something, as I mentioned in my opening statement, we are 
working very closely with the Under Secretary, Judith McHale, 
to do just that.
    But the surge is ongoing. There is better partnership than 
I think any of us have ever seen, particularly in Regional 
Command-East [RC-East] of Afghanistan, where there is literally 
a civilian counterpart for the regional commander, Major 
General Scaparrotti, and, in fact, it is Dawn Liberi, a long 
time she was working for CENTCOM, in fact, phenomenal AID 
individual, and then, all the way down at the brigade levels 
and so forth, as you work your way down.
    That is crucial because, again, this is all about unity of 
effort. That is why we have had these changes in command-and-
control arrangements as well. But on the civilian-to-military 
side, that is critical also.
    And a final note on that, Ambassador Holbrooke and I, in 
fact, are going to chair a review of concept drill, back 
briefed to us from the respective civilian and military 
leadership of the U.S. elements in Afghanistan here in the 
course of the next month or so.
    Mr. Wilson. Well, again, thank you so much.
    And, General McNabb, I am happy to see you. But I 
particularly appreciate you brought Major Matt Dack with you. 
He was a military fellow in our office, and an extraordinary 
reflection on the competence and capabilities of the U.S. Air 
Force.
    With regard to the tanker bid, do you see an opportunity 
for the KC-X to run an airlift or cargo capability?
    General McNabb. Sir, absolutely.
    I mean, the new tanker is my number one acquisition 
priority. Whenever the committee asks what they could do, that 
is---I need those new tankers. And it is for a lot of reasons, 
but one of them is it is fuel over the fight, but it is multi-
modal, multi-purpose capability that will allow us to have 
additional capability to move packs and cargo, especially with 
defensive systems going into places that right now we would be 
denied in the civil reserve air fleet.
    Mr. Wilson. Thank you very much.
    The Chairman. I thank the gentleman from South Carolina.
    Admiral Olson, the 1208 program--I know it is supposed to 
help you engage with partners in different parts of the globe. 
Can you describe for us the sort of activities you undertake 
for this program for the committee please?
    Admiral Olson. Yes, Chairman Skelton. In order to describe 
the specific actions themselves, we would have to go into 
closed session. But the category of actions that 1208s support 
are training and equipping surrogates and partners who are 
liable because of their enhanced capabilities to relieve 
American service members from having to perform certain 
operational activities. It is an authority that--that is, for 
which the United States--the Commander, United States Special 
Operations Command is the senior recommender in terms of how 
1208 funds should be expended.
    It is currently a temporary authority. It is currently at 
$40.0 million per year, and that is an authority and not an 
appropriation. What it does is permit the Commander, Special 
Operations Command, to reprioritize from within his own O&M 
accounts to fund those activities.
    The Chairman. I thank the gentleman.
    Thank you very much for your testimony, for your fantastic 
work, and please go back to your commands knowing that you have 
our gratitude and our support.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 17, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8173.001
    
    [GRAPHIC] [TIFF OMITTED] T8173.002
    
    [GRAPHIC] [TIFF OMITTED] T8173.003
    
    [GRAPHIC] [TIFF OMITTED] T8173.101
    
    [GRAPHIC] [TIFF OMITTED] T8173.102
    
    [GRAPHIC] [TIFF OMITTED] T8173.103
    
    [GRAPHIC] [TIFF OMITTED] T8173.104
    
    [GRAPHIC] [TIFF OMITTED] T8173.004
    
    [GRAPHIC] [TIFF OMITTED] T8173.005
    
    [GRAPHIC] [TIFF OMITTED] T8173.006
    
    [GRAPHIC] [TIFF OMITTED] T8173.007
    
    [GRAPHIC] [TIFF OMITTED] T8173.008
    
    [GRAPHIC] [TIFF OMITTED] T8173.009
    
    [GRAPHIC] [TIFF OMITTED] T8173.010
    
    [GRAPHIC] [TIFF OMITTED] T8173.011
    
    [GRAPHIC] [TIFF OMITTED] T8173.012
    
    [GRAPHIC] [TIFF OMITTED] T8173.013
    
    [GRAPHIC] [TIFF OMITTED] T8173.014
    
    [GRAPHIC] [TIFF OMITTED] T8173.015
    
    [GRAPHIC] [TIFF OMITTED] T8173.016
    
    [GRAPHIC] [TIFF OMITTED] T8173.017
    
    [GRAPHIC] [TIFF OMITTED] T8173.018
    
    [GRAPHIC] [TIFF OMITTED] T8173.019
    
    [GRAPHIC] [TIFF OMITTED] T8173.020
    
    [GRAPHIC] [TIFF OMITTED] T8173.021
    
    [GRAPHIC] [TIFF OMITTED] T8173.022
    
    [GRAPHIC] [TIFF OMITTED] T8173.023
    
    [GRAPHIC] [TIFF OMITTED] T8173.024
    
    [GRAPHIC] [TIFF OMITTED] T8173.025
    
    [GRAPHIC] [TIFF OMITTED] T8173.026
    
    [GRAPHIC] [TIFF OMITTED] T8173.027
    
    [GRAPHIC] [TIFF OMITTED] T8173.028
    
    [GRAPHIC] [TIFF OMITTED] T8173.029
    
    [GRAPHIC] [TIFF OMITTED] T8173.030
    
    [GRAPHIC] [TIFF OMITTED] T8173.031
    
    [GRAPHIC] [TIFF OMITTED] T8173.032
    
    [GRAPHIC] [TIFF OMITTED] T8173.033
    
    [GRAPHIC] [TIFF OMITTED] T8173.034
    
    [GRAPHIC] [TIFF OMITTED] T8173.035
    
    [GRAPHIC] [TIFF OMITTED] T8173.036
    
    [GRAPHIC] [TIFF OMITTED] T8173.037
    
    [GRAPHIC] [TIFF OMITTED] T8173.038
    
    [GRAPHIC] [TIFF OMITTED] T8173.039
    
    [GRAPHIC] [TIFF OMITTED] T8173.040
    
    [GRAPHIC] [TIFF OMITTED] T8173.041
    
    [GRAPHIC] [TIFF OMITTED] T8173.042
    
    [GRAPHIC] [TIFF OMITTED] T8173.043
    
    [GRAPHIC] [TIFF OMITTED] T8173.044
    
    [GRAPHIC] [TIFF OMITTED] T8173.045
    
    [GRAPHIC] [TIFF OMITTED] T8173.046
    
    [GRAPHIC] [TIFF OMITTED] T8173.047
    
    [GRAPHIC] [TIFF OMITTED] T8173.048
    
    [GRAPHIC] [TIFF OMITTED] T8173.049
    
    [GRAPHIC] [TIFF OMITTED] T8173.050
    
    [GRAPHIC] [TIFF OMITTED] T8173.051
    
    [GRAPHIC] [TIFF OMITTED] T8173.052
    
    [GRAPHIC] [TIFF OMITTED] T8173.053
    
    [GRAPHIC] [TIFF OMITTED] T8173.054
    
    [GRAPHIC] [TIFF OMITTED] T8173.055
    
    [GRAPHIC] [TIFF OMITTED] T8173.056
    
    [GRAPHIC] [TIFF OMITTED] T8173.057
    
    [GRAPHIC] [TIFF OMITTED] T8173.058
    
    [GRAPHIC] [TIFF OMITTED] T8173.059
    
    [GRAPHIC] [TIFF OMITTED] T8173.060
    
    [GRAPHIC] [TIFF OMITTED] T8173.061
    
    [GRAPHIC] [TIFF OMITTED] T8173.062
    
    [GRAPHIC] [TIFF OMITTED] T8173.063
    
    [GRAPHIC] [TIFF OMITTED] T8173.064
    
    [GRAPHIC] [TIFF OMITTED] T8173.065
    
    [GRAPHIC] [TIFF OMITTED] T8173.066
    
    [GRAPHIC] [TIFF OMITTED] T8173.067
    
    [GRAPHIC] [TIFF OMITTED] T8173.068
    
    [GRAPHIC] [TIFF OMITTED] T8173.069
    
    [GRAPHIC] [TIFF OMITTED] T8173.070
    
    [GRAPHIC] [TIFF OMITTED] T8173.071
    
    [GRAPHIC] [TIFF OMITTED] T8173.072
    
    [GRAPHIC] [TIFF OMITTED] T8173.073
    
    [GRAPHIC] [TIFF OMITTED] T8173.074
    
    [GRAPHIC] [TIFF OMITTED] T8173.075
    
    [GRAPHIC] [TIFF OMITTED] T8173.076
    
    [GRAPHIC] [TIFF OMITTED] T8173.077
    
    [GRAPHIC] [TIFF OMITTED] T8173.078
    
    [GRAPHIC] [TIFF OMITTED] T8173.079
    
    [GRAPHIC] [TIFF OMITTED] T8173.080
    
    [GRAPHIC] [TIFF OMITTED] T8173.081
    
    [GRAPHIC] [TIFF OMITTED] T8173.082
    
    [GRAPHIC] [TIFF OMITTED] T8173.083
    
    [GRAPHIC] [TIFF OMITTED] T8173.084
    
    [GRAPHIC] [TIFF OMITTED] T8173.085
    
    [GRAPHIC] [TIFF OMITTED] T8173.086
    
    [GRAPHIC] [TIFF OMITTED] T8173.087
    
    [GRAPHIC] [TIFF OMITTED] T8173.088
    
    [GRAPHIC] [TIFF OMITTED] T8173.089
    
    [GRAPHIC] [TIFF OMITTED] T8173.090
    
    [GRAPHIC] [TIFF OMITTED] T8173.091
    
    [GRAPHIC] [TIFF OMITTED] T8173.092
    
    [GRAPHIC] [TIFF OMITTED] T8173.093
    
    [GRAPHIC] [TIFF OMITTED] T8173.094
    
    [GRAPHIC] [TIFF OMITTED] T8173.095
    
    [GRAPHIC] [TIFF OMITTED] T8173.096
    
    [GRAPHIC] [TIFF OMITTED] T8173.097
    
    [GRAPHIC] [TIFF OMITTED] T8173.098
    
    [GRAPHIC] [TIFF OMITTED] T8173.099
    
    [GRAPHIC] [TIFF OMITTED] T8173.100
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 17, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. SPRATT

    General Petraeus. The annual programmed cost to maintain the Afghan 
National Security Forces at 305,600 is approximately 6.2 billion 
dollars. Our aspirational goal of the Afghan National Security Forces 
at a combined strength, which includes both the Afghan National Police 
and the Afghan National Army, of 400,000 troops has an annual 
programmed cost of approximately 10.3 billion dollars. [See page 18.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. TAYLOR

    General Petraeus. First it should be noted that the tactical 
directive issued by General McChrystal, which is what I think we are 
really talking about, is command guidance and not a change to the Rules 
of Engagement. As such, no U.S. service-members have been charged for 
violating the tactical directive. The tactical directive was never 
intended as a punitive measure but rather as a positive measure to 
focus commanders and troopers on protecting the Afghan people. It's not 
a punitive order and was never intended to be. The tactical directive 
has been an effective means of reducing civilian casualties, which is 
not only a moral imperative but also a key to accomplishing our 
mission. [See page 29.]
    Admiral Olson. All three Navy SEALs belonged to SEAL Team 10 
located in Little Creek, VA. At the time of the incident, they were 
augmenting SEAL Team 7 who was on deployment in Iraq and fell under the 
jurisdiction of Special Operations Command Central (SOCCENT).
    The three SEALS were offered non-judicial punishment; they all 
refused non-judicial punishment and they all demanded trial by court-
martial. It was only after the SEALS demanded trial by court-martial 
that the Commander, SOCCENT referred special courts-martial charges. 
Commander, SOCCENT is the Convening Authority for all three trials. In 
all three cases, the accuser (the person who ``brings'' the charges 
under the provisions of the Uniformed Code of Military Justice) was a 
member of our uniformed forces.
    Region Legal Service Office Mid-Atlantic (located in Norfolk, VA) 
is providing the Military Trial Counsels/Prosecutors.
    Naval Legal Service Office Mid-Atlantic (located in Norfolk, VA) is 
providing detailed Military Defense Counsels. Additionally, all three 
of the accused have retained their own civilian defense attorneys at no 
expense to the government.
    Trial dates:
    U.S. v. Keefe 19-21 Apr 10 (Iraq)
    U.S. v. Huertas 23-26 Apr 10 (Iraq)
    U.S. v. McCabe 3 May 10 (Norfolk) [See page 29.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. SANCHEZ

    Admiral Olson. As of 26 MAR 2010, the percent of total SOF deployed 
in CENTCOM AOR was 84.76%. The breakdown for Afghanistan, Iraq and 
Pakistan are as follows:
    AFG: 5,834
    IZ: 4,544
    PAK: 139 [See page 32.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    General Petraeus. My written posture statement lists categories of 
cross-cutting issues that are major drivers of instability, inter-state 
tensions, and conflict in the U.S. Central Command (CENTCOM) Area of 
Responsibility (AOR). These factors can serve as root causes of 
instability or as obstacles to security. They help describe the 
strategic context of the region.
    These categories are not listed in order of priority, nor should 
they be thought of in this way. Because local conditions across the AOR 
are complex and unique, it is more relevant to the prioritization of 
our efforts to analyze and compare specific issues within a category of 
issues than simply to compare the broad categories. Regarding the issue 
of disputed territories, for instance, competing claims by several 
Central Asian countries to parts of the Fergana Valley, though 
important, do not serve as a catalyst for conflict nearly as much as 
the competing claims over Kashmir by Pakistan and India do. In 
addition, because these factors present greater challenges to security 
wherever they are found in combination, it is more relevant to analyze 
the major systems of conflict throughout the AOR, such as in 
Afghanistan, Pakistan, Iraq, and Yemen, than to analyze specific cross-
cutting issues. As such, we assess the situation in the AOR by 
disaggregating the problem set into sub-regional systems. This general 
framework allows for the greatest specificity and rigor in analyzing 
the threats to U.S. interests and delineating our priorities.
    The posture statement clearly lists and describes our priorities in 
the section immediately preceding the description of the cross-cutting 
issues. Specifically, it is our assessment at CENTCOM that the most 
serious threats to U.S. interests lay at the nexus of militant groups, 
hostile states, and weapons of mass destruction. Moreover, we believe 
that the greatest potential for these threats is found in the 
instability in Afghanistan and Pakistan, the activities and policies of 
the Iranian regime, the situation in Iraq, and the growth of Al Qaeda 
in the Arabian Peninsula in Yemen. Reinforcing these points, the 
statement goes on to describe the insurgencies in Afghanistan and 
Pakistan as the most urgent problem set in the CENTCOM AOR and the 
activities and policies of the Iranian regime as the major state-level 
threats to regional stability. The challenges associated with these 
sub-regional systems are our priorities at CENTCOM, and we devote the 
overwhelming majority of our resources and energy to addressing them. 
[See page 43.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2010

=======================================================================

      
                    QUESTION SUBMITTED BY MR. BRADY

    Mr. Brady. A recent news report stated that SOF units in 
Afghanistan were being moved under Gen McCrystal's purview and control 
due to civilian casualty numbers that exceeded those of other units. 
Who were they previously reporting to? Wouldn't their reporting to a 
chain other than that lead by the overall commander lead to a 
divergence of effort and effect? My concern is not to witch-hunt the 
SOF units or their judgment, but when so much of the success depends on 
a continuity of focus providing a better alternative than the Taliban, 
how can we not have unity of purpose and command for all of our forces 
on the ground? There is certainly a great deal of strain on the SOF 
units, and has been since 9/11. We have made great strides in 
increasing the numbers of operators to alleviate this pressure. Another 
step we can take is to shed some of the missions to the Army's more 
streamlined Brigade Combat Teams. What missions can you see the regular 
Army/Armed Forces taking, like indigenous troop training, theater 
security cooperation, etc?
    Admiral Olson. General McChrystal's new policy was a natural 
outgrowth of his plans as the U.S. Forces-Afghanistan (USFOR-A) 
Commander to unify his command. U.S. Special Operations Forces (SOF) 
deployed to Afghanistan have always operated under the tactical control 
of the senior U.S. Commander in Afghanistan, currently USFOR-A 
Commander (GEN McCrystal). All U.S. forces deployed to the USCENTCOM 
Area of Operation had been under the operational control of the U.S. 
Central Command's Special Operations Component or Special Operations 
Command Central (SOCCENT). This recent change gives operational control 
of all U.S. Marine and select SOF operating in Afghanistan to USFOR-A 
Commander. Operational control gives the commander greater authority 
and unity of effort among all his forces under his command.
    We have been working closely with Joint Staff to ensure the 
appropriate force is selected to support the mission. We routinely 
validate force requests from Combatant Commands to determine whether 
General Purpose Forces (GPF) or special operators are needed to support 
the mission. Yes, there are missions that conventional forces could 
assist/perform entirely. These missions include those involving basic 
skills training and those that do not require specialized training, 
language/cultural skills or special equipment. A number of these 
missions can and are conducted by GPF, some of these missions include: 
Training, Information Operations, and Reconnaissance. Security Force 
Assistance (SFA) missions which encompass several host nation building 
activities are also conducted by both GPF and SOF. Increasing SFA 
capabilities within the Services will significantly help in reducing 
the current demand on our special operations forces.
                                 ______
                                 
              QUESTIONS SUBMITTED BY MRS. MCMORRIS RODGERS

    Mrs. McMorris Rodgers. General McNabb, as you know, I proudly 
represent Fairchild Air Force Base, the tanker hub of the west. With 
the springtime offensive in Afghanistan, the redeployment from Iraq, 
and the humanitarian relief efforts around the world expanding to 
include Haiti and Chile, what does the future of the tanker taskings 
look like in the short and long term?
    General McNabb. Fairchild Air Force Base continues to provide 
world-wide air refueling in support of myriad operations, including 
Operation ENDURING FREEDOM (OEF), Homeland Defense, and U.S. Pacific 
Command requirements, to name a few. In support of OEF, Fairchild flew 
357 tanker sorties in CY 2009 and 58 sorties in the first quarter of CY 
2010. Given the surge of combat forces in Afghanistan, the potential 
exists for increased tanker tasking.
    In addition to Central Command operations, Fairchild also provides 
support for multiple operations in the Pacific theater. U.S. Pacific 
Command covers a vast geographical area of responsibility that requires 
extensive air refueling capability for mission success. In CY 2009, 
Fairchild flew 157 missions delivering over 3 million pounds of fuel in 
support of U.S. Pacific Command. That support increased in the first 
quarter of CY 2010 as 57 sorties delivered over 1 million pounds of 
fuel.
    Fairchild is a major player in the Homeland Defense mission, too. 
Fairchild tankers flew 17 Operation Noble Eagle (ONE) sorties in CY 
2009 and 42 sorties in the first quarter of CY 2010, providing a total 
of 3,433,600 pounds of fuel to support the mission of securing the 
skies above the Vancouver Olympic Games. With the exception of the air 
refueling requirements supporting the Vancouver Olympics, during 
January to March 2010, I anticipate the 2010 ONE requirement to mirror 
requirements for 2009.
    Priority 1 and 2 missions remain a key component in Fairchild's air 
refueling mission. Priority 1 and 2 missions are categorized as 
Presidential mission support, operational and strategic mission 
support. Fairchild aircrews flew 802 Priority 1 and 2 tanker sorties in 
CY 2009 and the first quarter of CY 2010, moving over 24 million pounds 
of fuel.
    Because of the constant requirement for their services, the 
continuing high level of operations, and Fairchild's rock-solid 
reliability, Fairchild's mission will remain vital to U.S. 
Transportation Command for both the short term and long term. Please 
convey my sincere thanks and appreciation to your constituents at 
Fairchild Air Force Base.
    The overall mission of the KC-135 will also continue to be vital to 
U.S. strategic policy as a force extender, for both the short and long 
term. Please bear in mind that replacement of our aging tanker fleet 
remains my number one acquisition priority. Worldwide, KC-135 Priority 
1 and 2 missions delivered over 284 million pounds of fuel and flew 
8,476 sorties in CY 2009. The first quarter of CY 2010 shows the KC-135 
is close to those worldwide numbers with 1,855 sorties delivering over 
54 million pounds of fuel. These U.S. Air Force tankers support all of 
our military services, as well as providing air refueling support to 
our international partners. They are a potent symbol of America's 
ability to reach out anywhere, at anytime.
    Mrs. McMorris Rodgers. How has the delayed KC-X acquisition process 
impacted your ability to perform your missions?
    General McNabb. While we are meeting current operational 
requirements in Operation Iraqi Freedom/Operation Enduring Freedom, we 
are doing so at a higher mobilization rate of Air Force Reserve Command 
(AFRC) and Air National Guard (ANG) KC-135s due to aircraft 
availability and reliability rates. Furthermore, decreasing aircraft 
availability in the KC-135 fleet impacts our ability to meet full war 
plan requirements. This impact will likely increase if the fielding of 
the KC-X continues to slip. As with any aging airframe, there is also 
an increasing risk of having an unknown structural issue that could 
impact the entire KC-135 fleet.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. ELLSWORTH

    Mr. Ellsworth. In his recent report to Congress on the deployment 
of non-lethal weapons, the Secretary of Defense indicated that each 
Service is providing escalation of force tools and capabilities 
training to its forces prior to their deployment. Unfortunately, the 
report offered no information on types of escalation of force equipment 
warfighters are being trained for, the duration of that training, or 
assessments of how these tools are being used in theater. Can you 
please provide for the record, information on the types of non-lethal 
weapons/escalation of force tools on which each service is training, 
the hours committed to that training, and an assessment of how those 
tools are being deployed by each service branch in Afghanistan and 
Iraq?
    General Petraeus. The specific types of non-lethal weapons/
escalation of force tools, training, and detailed assessment of their 
deployment are best answered by the Services as they are the force 
providers responsible for providing trained and equipped forces to meet 
Combatant Command requirements. In the USCENTCOM AOR, Air Force, Army 
and Marines employ non-lethal weapons/tools at Entry Control Points 
(ECP), around Forward Operating Bases (FOB), and at air bases. Marines 
and Army additionally employ non-lethal weapons and tools during convoy 
operations, and at deliberate or hasty checkpoints. All Services use 
non-lethal weapons/tools for dismounted patrols, crowd control, general 
protection, and for Detention Operations.
    These non-lethal weapons/tools include visual aids such as orange 
safety vests and cones, portable and hand-held high-intensity light 
sets, red flashing lights, traffic paddles, pen flares, and DOD-
approved green dazzling lasers. They also include acoustic hailing 
devices with phaselator/voice translators, and several types of non-
lethal munitions to include 12 gauge, 40MM, and compressed air 
paintball marking rounds. We generally assess that non-lethal weapons/
tools are effectively deployed to and employed by most units and 
troops, and the number of troops employing them is increasing with each 
unit rotation. However; there is a requirement for continued 
development and training of these weapons/tools to improve their 
effectiveness and reliability.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
